APPENDIX

APPENDIX
Decision of the Eleventh Circuit Court of Appeals,
Franklin v. United States,___ F. App’x ___,
2020 WL 1867910 (11th Cir. Apr. 14, 2020) ............................................................. A-1
Indictment, United States v. Jimmy Lee Franklin, .................................................. A-2
Judgment and Commitment, United States v. Jimmy Lee Franklin, ..................... A-3
Motion to Vacate Sentence Pursuant to 28 U.S.C. § 2255 ....................................... A-4
Order Denying Motion to Vacate .............................................................................. A-5
Order Denying Motion for Reconsideration ............................................................. A-6
Order Granting Joint Motion for Summary Reversal ............................................. A-7
Supplemental Memorandum after Summary Reversal ........................................... A-8
Government Response to Supplemental Memorandum........................................... A-9
Order Denying § 2255 Motion Based on Beeman ................................................... A-10
Order Granting Motion for Certificate of Appealability ........................................ A-11

A-1

Franklin v. United States, --- Fed.Appx. ---- (2020)
2020 WL 1867910

2020 WL 1867910
Only the Westlaw citation is currently available.
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
Jimmy Lee FRANKLIN, Petitioner-Appellant,
v.
UNITED STATES of America, Respondent-Appellee.
No. 19-13422
|
Non-Argument Calendar
|
(April 14, 2020)
Synopsis
Background: Following affirmance on direct appeal of
defendant's conviction for being a felon in possession
of a firearm and ammunition, and his 180-month prison
term under the Armed Career Criminal Act (ACCA), 284
Fed.Appx. 701, he filed pro se motion to vacate. After
that motion was denied, defendant obtained authorization to
file a second or successive motion to vacate. The United
States District Court for the Southern District of Florida,
No. 1:16-cv-22192-CMA, 1:06-cr-20709-CMA-1, Cecilia M.
Altonaga, J., denied the motion. Defendant appealed.

Holdings: The Court of Appeals held that:
defendant was required to prove that it was more likely than
not that sentencing court relied on ACCA's residual clause,
rather than the elements clause; and
defendant failed to show that sentencing court could have
relied on ACCA's residual clause.
Affirmed.

Recognized as Unconstitutional
18 U.S.C.A. § 924(e)(2)(B)(ii)
Attorneys and Law Firms
Brenda Greenberg Bryn, Michael Caruso, Federal Public
Defender, Federal Public Defender's Office, Fort Lauderdale,
FL, for Petitioner-Appellant
Laura Thomas Rivero, Jason Wu, Assistant U.S. Attorney,
Emily M. Smachetti, U.S. Attorney Service - Southern
District of Florida, U.S. Attorney Service - SFL, Miami, FL,
for Respondent-Appellee
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket Nos. 1:16-cv-22192-CMA;
1:06-cr-20709-CMA-1
Before BRANCH, LAGOA, and HULL, Circuit Judges.
Opinion
PER CURIAM:
*1 Jimmy Franklin appeals the district court’s denial of his
counseled and authorized second 28 U.S.C. § 2255 motion
to vacate sentence in which he asserted a challenge to his
sentence under the Armed Career Criminal Act (“ACCA”)
based on Johnson v. United States, ––– U.S. ––––, 135
S. Ct. 2551, 192 L.Ed.2d 569 (2015). The district court
granted Franklin a certificate of appealability (“COA”) on the
following issue:

In a case where the sentencing record
does not reveal which clause of
the ACCA was the basis for the
enhancement, whether a section 2255
movant must prove it is “more likely
than not” the court relied only on
the residual clause, as the First, Fifth,
Sixth, Eighth, Tenth, and Eleventh
Circuits have held; or rather, the
movant need only show the ACCA
enhancement “may have” rested on the
residual clause, as the Second, Third,
Fourth, and Ninth Circuits have held.

Procedural Posture(s): Appellate Review; Post-Conviction
Review.
West Codenotes
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Franklin v. United States, --- Fed.Appx. ---- (2020)
2020 WL 1867910

Because Franklin’s claim is foreclosed by our binding
precedent, we affirm.

I. Background
In 2007, Franklin pleaded guilty to being a felon in possession
of a firearm and ammunition, in violation of 18 U.S.C.
§§ 922(g) and 924(e). Franklin’s presentence investigation
report (“PSI”) classified him as an armed career criminal,
pursuant to 18 U.S.C. § 924(e), 1 based on three prior violent
felony convictions, citing the following Florida convictions:
(1) 1987 robbery with a firearm, attempted robbery with a
firearm, and aggravated assault; (2) 1987 battery on a law
enforcement officer; and (3) 1997 attempted armed robbery.
The PSI did not specify whether those convictions qualified as
violent felonies under the ACCA’s elements clause or residual
clause. Franklin did not raise any objections to the PSI either
before or during the sentencing hearing. Similarly, he did not
raise any challenge to the ACCA enhancement at sentencing,
and the district court did not specify whether it was relying
on the elements clause or the residual clause in determining
that Franklin’s prior convictions qualified as violent felonies
for purposes of the ACCA. The district court sentenced
Franklin to 180 months’ imprisonment, followed by 5 years’
supervised release. 2 We affirmed on direct appeal. United
States v. Franklin, 284 F. App'x 701 (11th Cir. 2008).
*2 In 2009, Franklin, proceeding pro se, filed his initial
28 U.S.C. § 2255 motion, which was denied. In 2015,
however, pursuant to 28 U.S.C. §§ 2255(h) 3 and 2244(b)(3)
(A), Franklin received authorization from this Court to file a
second or successive § 2255 motion based on the Supreme
Court’s then-recent decision in Johnson, 135 S. Ct. at 2557–
58, 2563, which held that the residual clause of the ACCA
was unconstitutionally vague.
In his counseled second § 2255 motion, 4 Franklin argued
that neither his prior 1987 Florida conviction for robbery with
a firearm, attempted robbery with a firearm, and aggravated
assault, nor his 1997 Florida conviction for attempted armed
robbery qualified as violent felonies for purposes of the
ACCA post-Johnson. Notably, he did not raise any challenge
to his 1987 conviction for battery on a law enforcement
officer. In response, the government argued that all of the prior
convictions originally identified in the PSI qualified as violent
felonies under the ACCA’s elements clause, and, therefore, he

was not entitled to relief. The district court first determined
that the record was unclear as to whether Franklin was
sentenced under the ACCA’s residual clause, the elements
clause, or the enumerated offenses clause. 5 Nevertheless,
the district court determined that Franklin was not entitled
to relief because his prior convictions for armed robbery,
attempted armed robbery, and battery on a law enforcement
officer 6 all qualified as predicate violent felonies under
the ACCA’s elements clause. Accordingly, the district court
dismissed Franklin’s second § 2255 motion and denied a
COA.
Franklin filed a motion to alter or amend judgment, pursuant
to Rule 59(e) of the Federal Rules of Civil Procedure,
arguing that the district court erred in upholding the ACCA
enhancement because his prior conviction for battery on a
law enforcement officer is not categorically a violent felony
under the ACCA’s elements clause. The district court denied
this motion, noting that this was the first time Franklin made
any argument concerning his battery on a law enforcement
officer conviction, and that, under the modified categorical
approach, it properly considered information contained in the
PSI in determining that this conviction qualified under the
ACCA’s elements clause.
*3 Franklin filed a notice of appeal and sought a COA from
this Court, which was denied. He then filed a petition for
a writ of certiorari with the United States Supreme Court.
The Supreme Court granted the petition, vacated this Court’s
COA denial, and remanded the case for further consideration
in light of the Solicitor General’s response memorandum, in
which the government agreed with Franklin that his prior
conviction for battery on a law enforcement officer did not
categorically qualify as a violent felony under the ACCA’s
elements clause. Franklin v. United States, ––– U.S. ––––, 139
S. Ct. 1254, 203 L.Ed.2d 270 (2019).
On remand and prior to briefing in this Court, Franklin
and the government jointly moved for summary reversal
of the district court’s order denying the second § 2255
motion, requesting that the judgment be vacated and the case
remanded to the district court so that the parties could brief,
and the district court could consider, the impact of this Court’s
intervening decision in Beeman v. United States, 871 F.3d
1215, 1221–22 (11th Cir. 2017), which held that in order to
prove entitlement to relief based on Johnson, the movant must
show that the district court “more likely than not” relied on the
residual clause, and solely on the residual clause in imposing
the ACCA enhancement. We granted the motion.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Franklin v. United States, --- Fed.Appx. ---- (2020)
2020 WL 1867910

On remand in the district court, Franklin filed a supplemental
memorandum, arguing that, based on the “legal landscape”
at the time of his 2007 sentencing, it was “more likely than
not” that the district court relied on the residual clause in
counting his battery on a law enforcement officer conviction
as an ACCA predicate violent felony. Specifically, he asserted
that: (1) at his 2007 sentencing, it was clear in this Circuit
that Florida battery convictions qualified under the ACCA’s
residual clause, which is why he did not object at sentencing,
and given his lack of objection, there would have been
no reason for the district court to consider the elements
clause; (2) whether a battery on a law enforcement officer
conviction qualified under the ACCA’s elements clause was
“uncertain” at that time; (3) courts were permitted, and
arguably even encouraged, to impose ACCA enhancements
under the residual clause; and (4) it was not until 2008, after
his sentencing, “that the Supreme Court put any constraint
on using the residual clause as the go-to path for the
enhancement.”
The government responded that, five months prior to
Franklin’s sentencing, we issued United States v. LlanosAgostadero, 486 F.3d 1194, 1197 (11th Cir. 2007), overruling
recognized by United States v. Diaz-Calderone, 716 F.3d
1345, 1349 (11th Cir. 2013), which held that Florida
aggravated battery on a pregnant women was a crime of
violence under one of the Sentencing Guidelines’ provisions,
and in doing so, we drew parallels to Florida battery on a
law enforcement officer as a crime of violence under the
Sentencing Guidelines’ career-offender provision’s elements
clause, U.S.S.G. § 4B1.2(a). The government explained
that the definition of a “crime of violence” for purposes
of the career-offender provision was virtually identical to
the definition of a violent felony under the ACCA, such
that decisions about one have been applied to the other.
Accordingly, the government maintained that the law in this
Circuit at the time of Franklin’s sentencing was clear that
Florida battery on a law enforcement officer was a crime of
violence under the Guidelines’ career offender provision’s
elements clause, and, in turn, was a violent felony under the
ACCA’s elements clause. Thus, Franklin could not show that
it was more likely than not that the district court relied solely
on the residual clause in imposing the ACCA enhancement.
*4 Upon review, the district court acknowledged that it had
no independent recollection of Franklin’s 2007 sentencing.
However, it agreed with the government that, in light of
Llanos-Agostadero, it was not more likely than not that it

relied on the residual clause in counting Franklin’s Florida
battery on a law enforcement officer conviction as an ACCA
violent felony. The district court explained that it “would
not have ignored binding precedent” and instead would have
determined that the conviction in question qualified under
the ACCA’s elements clause. Accordingly, Franklin was not
entitled to relief. Franklin subsequently moved for a COA,
noting that there was a circuit split as to the burden of proof a §
2255 movant asserting a Johnson-based claim must meet with
the First, Fifth, Sixth, Eighth, Tenth, and Eleventh Circuits
adopting the “more likely than not” standard, and the Second,
Third, Fourth, and Ninth Circuits adopting the “may have”
relied on standard (which was the standard originally applied
by the district court in ruling on Franklin’s second § 2255
motion). The district court granted Franklin’s request for a
COA as set forth above. This appeal followed.

II. Standard of Review
“[W]e review the district court’s legal conclusions in a § 2255
proceeding de novo and the underlying facts for clear error.”
Farris v. United States, 333 F.3d 1211, 1216 (11th Cir. 2003).
Further, under the prior-panel-precedent rule, “a prior panel’s
holding is binding on all subsequent panels unless and until it
is overruled or undermined to the point of abrogation by the
Supreme Court or by this Court sitting en banc.” United States
v. Archer, 531 F.3d 1347, 1352 (11th Cir. 2008). Finally, “the
scope of our review ... is limited to the issue[ ] enumerated
in the COA.” McKay v. United States, 657 F.3d 1190, 1195
(11th Cir. 2011).

III. Discussion
Franklin argues that Beeman, in which we adopted the “more
likely than not” burden of proof, was wrongly decided for
various reasons. 7 Franklin’s claim is foreclosed by binding
precedent as Beeman remains the applicable standard §
2255 movants asserting Johnson-based claims must meet in
this Circuit. Archer, 531 F.3d at 1352; see also Smith v.
GTE Corp., 236 F.3d 1292, 1303 (11th Cir. 2001) (“[W]e
categorically reject any exception to the prior panel precedent
rule based upon a perceived defect in the prior panel’s
reasoning or analysis as it relates to the law in existence at
that time.”).
Alternatively, in its § 2255 order, the district court indicated
“it would not have ignored binding precedent” and instead

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Franklin v. United States, --- Fed.Appx. ---- (2020)
2020 WL 1867910

at the time of sentencing would have determined that the
conviction in question qualified under the ACCA’s elements
clause. Since Johnson did not involve the elements clause,
Franklin’s Johnson-based claim fails. In other words, even
the “may have relied on” burden does not help Franklin.
Accordingly, we affirm.

AFFIRMED.
All Citations
--- Fed.Appx. ----, 2020 WL 1867910

Footnotes
1

2
3

4
5

6

7

Under the Armed Career Criminal Act (“ACCA”), a defendant convicted of violating 18 U.S.C. § 922(g) who
has three or more prior convictions for “a violent felony or a serious drug offense, or both, committed on
occasions different from one another,” faces a mandatory minimum 15-year sentence. See 18 U.S.C. § 924(e)
(1). At the time of Franklin’s sentencing, the ACCA defined a “violent felony” as any crime punishable by a
term of imprisonment exceeding one year that:
(i) has as an element the use, attempted use, or threatened use of physical force against the person of
another; or
(ii) is burglary, arson, or extortion, involves use of explosives, or otherwise involves conduct that presents
a serious potential risk of physical injury to another.
Id. § 924(e)(2)(B). The first prong of this definition was the “elements clause,” while the second prong
contained the “enumerated crimes clause” and the “residual clause.” United States v. Owens, 672 F.3d
966, 968 (11th Cir. 2012).
Franklin was released from prison on September 13, 2019 and is currently serving his term of supervised
release.
In relevant part, section 2255(h) provides that “[a] second or successive motion must be certified as provided
in section 2244 by a panel of the appropriate court of appeals to contain ... a new rule of constitutional law,
made retroactive to cases on collateral review by the Supreme Court, that was previously unavailable.” 28
U.S.C. § 2255(h)(2). Johnson announced such a rule. See Welch v. United States, ––– U.S. ––––, 136 S.
Ct. 1257, 1264–65, 1268, 194 L.Ed.2d 387 (2016).
The district court sua sponte appointed counsel for Franklin, and counsel thereafter filed a § 2255 motion.
As the magistrate judge noted in the report and recommendation, at the time of the district court proceedings
on Franklin’s second § 2255 motion, the movant’s burden of proof was unclear in cases such as Franklin’s
where the record was silent as to which clause the district court had relied. Compare In re Chance, 831 F.3d
1335 (11th Cir. 2016) (suggesting that the § 2255 movant just needed to show that the district court may
have relied on the residual clause), with In re Moore, 830 F.3d 1268 (11th Cir. 2016) (suggesting that the
movant had to show that the district court actually relied on the residual clause).
Notably, the magistrate judge concluded that, although the parties had not raised any challenge to Franklin’s
conviction for battery on a law enforcement officer, the conviction did not qualify as a violent felony for
purposes of the ACCA post-Johnson. The government objected to this finding. The district court determined
that this conviction was a qualifying violent felony under the modified categorial approach.
Franklin acknowledges that his claim is foreclosed by binding precedent and that he is simply preserving the
issue for Supreme Court review.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

A-2

Case 1:06-cr-20709-CMA Document 1 Entered on FLSD Docket 11/16/2006 Page 1 of 5
Nov 16, 2006

06-20709-CR-ALTONAGA/TURNOFF

1 of 5

Case 1:06-cr-20709-CMA Document 1 Entered on FLSD Docket 11/16/2006 Page 2 of 5

2 of 5

Case 1:06-cr-20709-CMA Document 1 Entered on FLSD Docket 11/16/2006 Page 3 of 5

3 of 5

Case 1:06-cr-20709-CMA Document 1 Entered on FLSD Docket 11/16/2006 Page 4 of 5

4 of 5

Case 1:06-cr-20709-CMA Document 1 Entered on FLSD Docket 11/16/2006 Page 5 of 5

5 of 5

A-3

Case 1:06-cr-20709-CMA Document 55 Entered on FLSD Docket 10/16/2007 Page 1 of 6
USDC FLSD 245B (Rev. 12/03) - Judgment in a Criminal Case

Page 1 of 6

United States District Court
Southern District of Florida
MIAMI DIVISION

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 06-20709-CR-ALTONAGA

JIMMY LEE FRANKLIN
USM Number: 78370-004
Counsel For D efendant: M ichael D . Spivack, Esq.
and Anne M. Lyons, Esq.
Counsel For T he United States: Sean P. Cronin, Esq.
Court Reporter: Barbara M edina
___________________________________

The defendant pled guilty to Count 1 of the Indictment.
The defendant is adjudicated guilty of the following offense:
TITLE/SECTION
NUMBER
18 U.S.C. § 922(g)(1)

NATURE OF
OFFENSE
Possession of a Firearm and
Ammunition by a Convicted Felon

OFFENSE ENDED

COUNT

May 16, 2006

1

The defendant is sentenced as provided in the following pages of this judgment.
Count 2 is dismissed on the motion of the United States.
It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change
of name, residence, or mailing address until all fines, restitution, costs and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States Attorney
of any material changes in economic circumstances.
Date of Imposition of Sentence:
October 16, 2007

________________________________
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE
October 16, 2007

Case 1:06-cr-20709-CMA Document 55 Entered on FLSD Docket 10/16/2007 Page 2 of 6
USDC FLSD 245B (Rev. 12/03) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: JIMMY LEE FRANKLIN
CASE NUMBER: 06-20709-CR-ALTONAGA

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for
a term of 180 months.
The Court makes the following recommendations to the Bureau of Prisons:
The defendant be designated to a facility located in or near South Florida, and that he receive
treatment for substance abuse.

The defendant is remanded to the custody of the United States Marshal.

RETURN
I have executed this judgment as follows:

Defendant delivered on ____________________ to _________________________________
at _____________________________________________, with a certified copy of this judgment.

__________________________________
UNITED STATES MARSHAL

By:__________________________________
Deputy U.S. Marshal

Case 1:06-cr-20709-CMA Document 55 Entered on FLSD Docket 10/16/2007 Page 3 of 6
USDC FLSD 245B (Rev. 12/03) - Judgment in a Criminal Case

Page 3 of 6

DEFENDANT: JIMMY LEE FRANKLIN
CASE NUMBER: 06-20709-CR-ALTONAGA

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 5 years.
The defendant shall report to the probation office in the district to which the defendant is released within 72
hours of release from custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any
unlawful use of a controlled substance. The defendant shall submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
The defendant shall not possess a firearm, destructive device, or any other dangerous weapon.

If this judgment imposes a fine or a restitution obligation, it is a condition of supervised release that the
defendant pay in accordance with the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as any
additional conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

the defendant shall not leave the judicial district without the permission of the court or probation officer;
the defendant shall report to the probation officer as directed by the court or probation officer and shall submit a truthful
and complete written report within the first five days of each month;
the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
the defendant shall support his or her dependents and meet other family responsibilities;
the defendant shall work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable reasons;
the defendant shall notify the probation officer at least ten (10) days prior to any change in residence or employment;
the defendant shall refrain from the excessive use of alcohol and shall not purchase, possess, use, distribute, or administer
any controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
the defendant shall not associate with any persons engaged in criminal activity, and shall not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit
confiscation of any contraband observed in plain view by the probation officer;
the defendant shall notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the court;
as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the
defendant’s criminal record or personal history or characteristics, and shall permit the probation officer to make such
notifications and to confirm the defendant’s compliance with such notification requirement.

Case 1:06-cr-20709-CMA Document 55 Entered on FLSD Docket 10/16/2007 Page 4 of 6
USDC FLSD 245B (Rev. 12/03) - Judgment in a Criminal Case

Page 4 of 6

DEFENDANT: JIMMY LEE FRANKLIN
CASE NUMBER: 06-20709-CR-ALTONAGA

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall also comply with the following additional conditions of supervised release:
The defendant shall participate in an approved treatment program for drug and/or alcohol abuse and abide
by all supplemental conditions of treatment. Participation may include inpatient/outpatient treatment. The defendant
will contribute to the costs of services rendered (co-payment) based on ability to pay or availability of third party
payment.
The defendant shall maintain full-time, legitimate employment and not be unemployed for a term of more than
30 days unless excused for schooling, training or other acceptable reasons. Further, the defendant shall provide
documentation including, but not limited to pay stubs, contractual agreements, W-2 Wage and Earnings Statements,
and other documentation requested by the U.S. Probation Officer.
The defendant shall submit to a search of his/her person or property conducted in a reasonable manner and
at a reasonable time by the U.S. Probation Officer.

Case 1:06-cr-20709-CMA Document 55 Entered on FLSD Docket 10/16/2007 Page 5 of 6
USDC FLSD 245B (Rev. 12/03) - Judgment in a Criminal Case

Page 5 of 6

DEFENDANT: JIMMY LEE FRANKLIN
CASE NUMBER: 06-20709-CR-ALTONAGA

CRIMINAL MONETARY PENALTIES

The defendant must pay the total criminal monetary penalties under the Schedule of Payments.
Total Assessment

Total Fine

Total Restitution

$100.00

0

0

*Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of T itle 18, United States Code, for offenses committed
on or after September 13, 1994, but before April 23, 1996.

Case 1:06-cr-20709-CMA Document 55 Entered on FLSD Docket 10/16/2007 Page 6 of 6
USDC FLSD 245B (Rev. 12/03) - Judgment in a Criminal Case

Page 6 of 6

DEFENDANT: JIMMY LEE FRANKLIN
CASE NUMBER: 06-20709-CR-ALTONAGA

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties are due as follows:
A. Lump sum payment of $100.00 due immediately.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made through
the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
The assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed
to:
U.S. CLERK’S OFFICE
ATTN: FINANCIAL SECTION
301 N. MIAMI AVENUE, ROOM 150
MIAMI, FLORIDA 33128
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and
the U.S. Attorney’s Office are responsible for the enforcement of this order.

The defendant shall forfeit the defendant’s interest in the following property to the United States:
Forfeiture of the defendant’s right, title,
and interest in certain property is hereby
ordered consistent with the plea
agreement. The United States shall submit
a proposed order of forfeiture within three
days of this proceeding.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4)
fine principal, (5) community restitution, (6) fine interest (7) penalties, and (8) costs, including cost of prosecution and
court costs.

A-4

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 1 of 24

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-22192-CV-ALTONAGA
(06-20709-CR-ALTONAGA)
JIMMY LEE FRANKLIN
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.
_____________________________/
MOTION TO CORRECT SENTENCE PURSUANT TO 28 U.S.C. § 2255
AND MEMORANDUM OF LAW IN SUPPORT
Mr. Jimmy Lee Franklin, through undersigned counsel, respectfully moves
this Court to correct his sentence, pursuant to 28 U.S.C. § 2255, and states:
1. On October 16th, 2007, Mr. Franklin was convicted of being a felon in possession of a firearm, in violation of 18 U.S.C. §§ 922(g)(1).
2. At sentencing, Mr. Franklin was subject to the Armed Career Criminal Act’s
(“ACCA”) 15-year mandatory minimum sentence. 18 U.S.C. § 924(e).
3. Mr. Franklin now requests relief in light of the Supreme Court’s decision in
Johnson v. United States, 576 U.S. __, 135 S. Ct. 2551 (June 26, 2015), which
held that the ACCA’s “residual clause” in § 924(e)(2)(B)(ii) is unconstitutionally vague.

1

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 2 of 24

4. Application of Johnson to this case shows that Mr. Franklin’s sentence was
imposed in excess of the statutory maximum.
5. Accordingly, Mr. Franklin is entitled to relief under § 2255.

PROCEDURAL HISTORY

On November 16th, 2006, the grand jury returned an indictment charging Mr.
Franklin with Possession of a Firearm by a Convicted Felon, in violation of 18
U.S.C. §§922(g)(1) and 924(e) (Count One); Possession of Body Armor by a Convicted Felon, in violation of 18 U.S.C. §931 (Count Two). (Cr-DE#1).
On August 1, 2007, pursuant to a negotiated plea agreement with the government, Mr. Franklin pleaded guilty to Count One of the indictment. (Cr-DE#45).
A Presentence Investigation Report (“PSI”) was prepared in anticipation of
sentencing, wherein the probation officer determined that an offense involving possession of a firearm and ammunition by a convicted felon, who committed the offense subsequent to sustaining at least one felony conviction of either a crime of violence or a controlled substance offense, had a base offense level of 20. (PSI¶19).
Moreover, because one of the firearms was stolen, the offense level was increased by
two levels. (PSI¶20). The adjusted offense level was set at 22. (PSI¶24). However,
because the probation officer determined that Mr. Franklin qualified as an Armed
Career Criminal, his offense level increased to a level 33. (PSI¶25).

2

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 3 of 24

The probation officer further determined Mr. Franklin had a subtotal of seven criminal history points. (PSI¶40). However, because Mr. Franklin committed the
offense while serving a term of 12 months probation, 2 further criminal history
points were added. (PSI¶41). This placed Mr. Franklin in a Criminal History Category of IV. Moreover, because the probation officer determined that Mr. Franklin
was an Armed Career Criminal, his Criminal History Category was again calculated to be a category IV. (PSI¶42). Based on a Total Offense Level of 33 and a Criminal History Category of IV, the guideline imprisonment range was set between 188
to 235 months. (PSI¶88).
On October 16th, 2007, Mr. Franklin appeared for sentencing wherein he received a sentence of 180 months imprisonment as to Count One, to be followed by 5
years of supervised release and a special assessment of $100. (Cr-DE#54). The Clerk
entered judgment on October 16th, 2007. (Cr-DE#55). Mr. Franklin filed a timely notice of appeal. (Cr-DE#56). On July 1st, 2008, the Eleventh Circuit, per curiam, affirmed Mr. Franklin’s conviction. (Cr-DE#78). No petition for writ of certiorari was
filed.
For purposes of the federal one-year limitations period, the judgment of conviction in the underlying criminal case became final on October 1, 2008, when time
expired for filing a petition for writ of certiorari, ninety days following affirmance of
Mr. Franklin’s conviction on direct appeal.

3

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 4 of 24

Mr. Franklin filed his first motion to vacate within one year from the time
the judgment became final. Mr. Franklin filed his first §2255 motion timely. (CrDE#79) (Cv-DE#1). The first motion to vacate was denied on June 11th, 2009. (CvDE#11). On May 17th, 2016, a petition was filed with the Eleventh Circuit Court of
Appeals to allow the filing of a successive motion to vacate, set aside, or correct sentence. (Cr-DE#85). The petition was granted on June 15th, 2016. (Cr-DE#85).
GROUNDS FOR RELIEF
Mr. Franklin is no longer an armed career criminal. As an initial matter: Mr.
Franklin s claim is cognizable on collateral review; Johnson applies retroactively to
this case; and Mr. Franklin’s claim is timely.
I.

Mr. Franklin’s Claim is Cognizable Under § 2255
Section 2255(a) authorizes a federal prisoner claiming “that [his] sentence

was imposed in violation of the Constitution . . . or that the sentence was in excess
of the maximum authorized by law . . . [to] move the court which imposed the sentence to vacate, set aside or correct the sentence.” 28 U.S.C. § 2255(a). The statutory
maximum sentence for being a felon in possession of a firearm, in violation of
§ 922(g)(1), is ordinarily ten years’ imprisonment. 18 U.S.C. § 924(a)(2). However,
under the ACCA, where the defendant “has three previous convictions . . . for a violent felony 1 or a serious drug offense, or both, committed on occasions different from

As relevant here, the term “violent felony” includes certain crimes that “(i) ha[ve]
as an element the use, attempted use, or threatened use of physical force against
the person of another [“elements clause”]; or (ii) is burglary, arson, or extortion, involves use of explosives [“enumerated offenses”], or otherwise involves conduct that

1

4

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 5 of 24

one another, such person shall be fined under this title and imprisoned not less
than fifteen years.” Id. § 924(e)(1). Thus, this Court “can collaterally review a misapplication of the Armed Career Criminal Act because . . . that misapplication results in a sentence that exceeds the statutory maximum.” Spencer v. United States,
773 F.3d 1132, 1143 (11th Cir. 2014) (en banc).
II.

Mr. Franklin’s Motion is Timely
As relevant here, § 2255 imposes a one-year statute of limitations that runs

from “the date on which the right asserted was initially recognized by the Supreme
Court, if that right has been newly recognized by the Supreme Court and made retroactively applicable to cases on collateral review.” 28 U.S.C. § 2255(f)(3). That date
runs from the date the Supreme Court recognizes the new right. Dodd v. United
States, 545 U.S. 343, 360 (2005).
Mr. Franklin’s motion is timely under § 2255(f)(3). In declaring the ACCA’s
residual clause unconstitutionally vague, Johnson recognized a new right because
that result was not “dictated by precedent” at the time Jimmy Lee Franklin’s conviction became final. See Howard v. United States, 374 F.3d 1068, 1073–74 (11th
Cir. 2004). To the contrary, the Supreme Court itself, as well as the Eleventh Circuit, had repeatedly rejected vagueness challenges to the residual clause. Sykes v.
United States, 564 U.S. 1 (2011); James v. United States, 550 U.S. 192, 210 n. 6
(2007); United States v. Gandy, 710 F.3d 1234, 1239 (11th Cir. 2013). And, as explained above, Johnson applies retroactively because it is a substantive rule.
presents a serious potential risk of physical injury to another [“residual clause”].” 18
U.S.C. § 924(e)(2)(B).
5

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 6 of 24

Therefore, Mr. Franklin has one year from the date Johnson was decided—
June 26, 2016—to seek relief. See Dodd v. United States, 545 U.S. 343, 360 (2005).
Thus, this motion is timely under § 2255(f)(3).
III.

Johnson Applies Retroactively to this Case
In Welch v. United States, the Supreme Court squarely held that “Johnson

announced a substantive rule that has retroactive effect in cases on collateral review.” 578 U.S. at __, 136 S. Ct. 1257, 1268 (2016); see id. at 1265 (“the rule announced in Johnson is substantive”); Mays v. United States, 817 F.3d 728, 736 (11th
Cir. 2016) (concluding even before Welch that “Johnson is retroactive because it
qualifies as a substantive rule . . . since it narrows the class of people that may be
eligible for a heightened sentence under the ACCA.”). Thus, there can be no dispute
that Johnson applies retroactively to this case.
IV.

The categorical and modified categorical approach
Before explaining why Mr. Franklin is no longer an armed career criminal, it

is necessary to briefly set out the governing analytical framework. That framework,
summarized below, was refined most recently in Descamps v. United States, 133 S.
Ct. 2275 (2013), which is “the law of the land” and “must be . . . followed.” United
States v. Howard, 73 F.3d 1334, 1344 n.2 (11th Cir. 2014).
In determining whether a prior conviction qualifies as a “violent felony,” sentencing courts must apply the “categorical approach.” Under that approach, “courts
may ‘look only to the statutory definitions’—i.e., the elements—of a defendant’s prior offenses, and not ‘to the particular facts underlying those convictions.’” Descamps,

6

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 7 of 24

133 S. Ct. at 2283 (quoting Taylor v. United States, 495 U.S. 575, 600 (1990)). In
adopting this approach, the Court emphasized both Sixth Amendment concerns (explained below) and the need to avert “‘the practical difficulties and potential unfairness of a [daunting] factual approach.’” Id. at 2287 (quoting Taylor, 495 U.S. at
601). As a result, courts “look no further than the statute and judgment of conviction.” United States v. Estrella, 758 F.3d 1239, 1244 (11th Cir. 2014) (citation omitted). And, in doing so, they “must presume that the conviction ‘rested upon nothing
more than the least of the acts’ criminalized.” Moncrieffe v. Holder, 133 S. Ct. 1678,
1684 (2011) (quoting Johnson v. United States, 559 U.S. 133, 137 (2010)).
After Johnson, a conviction may qualify as a “violent felony” if it is one of the
ACCA’s enumerated offenses. In determining whether a prior conviction so qualifies, the court must ask whether “the relevant statute has the same elements as the
‘generic’ ACCA crime.” Descamps, 133 S. Ct. at 2283. If so, “then the prior conviction can serve as an ACCA predicate; so too if the statute defines the crime more
narrowly, because anyone convicted under that law is necessarily guilty of all the
generic crime’s elements.” Id. (citation and ellipses omitted). However, “if the statute sweeps more broadly than the generic crime, a conviction under that law cannot
count as an ACCA predicate, even if the defendant actually committed the offense
in its generic form.” Id. “The key . . . is elements, not facts.” Id.
A prior conviction may also qualify as a “violent felony” if it satisfies the ACCA’s elements/force clause. The categorical approach applies equally in that context.
Again looking no further than the statute and judgment of conviction, a conviction

7

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 8 of 24

will qualify as an ACCA predicate “only if the statute on its face requires the government to establish, beyond a reasonable doubt and without exception, an element
involving the use, attempted use, or threatened use of physical force against a person for every charge brought under the statute.” Estrella, 758 F.3d at 1244 (citation
omitted). “Whether, in fact, the person suffering under this particular conviction actually used, attempted to use, or threatened to use physical force against a person is
quite irrelevant. Instead, the categorical approach focuses on whether in every case
a conviction under the statute necessarily involves proof of the element.” Id. (citations omitted).
To implement the categorical approach, the Supreme Court has “recognized a
narrow range of cases in which sentencing courts” may look beyond the statute and
judgment of conviction and employ what it is referred to as the “modified categorical
approach.” Descamps, 133 S. Ct. at 2283–84. Those cases arise where the statute of
conviction contains alternative elements, some constituting a violent felony and
some not. In that scenario, “the statute is ‘divisible,’” in that it “comprises multiple,
alternative versions of the crime.” Id. at 2284. As a result, “a later sentencing court
cannot tell, without reviewing something more [than the statute and judgment of
conviction], if the defendant’s conviction” qualifies as violent felony. Id.
Two key points must be made about the modified categorical approach. First,
Descamps made clear that “the modified categorical approach can be applied only
when dealing with a divisible statute.” Howard, 742 F.3d at 1344. Thus, where the
statute of conviction “does not concern any list of alternative elements” that must be

8

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 9 of 24

found by a jury, there is no ambiguity requiring clarification, and therefore the
“modified approach . . . has no role to play.” Descamps, 133 S. Ct. at 2285–86; see
Estrella, 758 F.3d at 1245–46; Howard, 742 F.3d at 1345–46. “[I]f the modified categorical approach is inapplicable,” then the court must limit its review to the statute
and judgment of conviction. Howard, 742 F.3d at 1345. And, even if a statute is divisible, the court need not employ the modified categorical approach if none of the
alternatives would qualify. Id. at 1346–47.
Second, even where the modified categorical approach does apply, it does not
permit courts to consider the defendant’s underlying conduct. Rather, “the modified
approach merely helps implement the categorical approach when a defendant was
convicted of violating a divisible statute. The modified approach thus acts not as an
exception, but instead as a tool. It retains the categorical approach’s central feature:
a focus on the elements, rather than the facts, of a crime.” Descamps, 133 S. Ct. at
2285. And, in order to ensure that the focus remains on the statutory elements rather than the defendant’s underlying conduct, the court is restricted in what documents it may consider.
In Shepard v. United States, 544 U.S. 13, 15 (2005), the Supreme Court held
that courts are “limited to examining the statutory definition, charging document,
written plea agreement, transcript of plea colloquy, and any explicit factual finding
by the trial judge to which the defendant assented.” What these Shepard documents
have in common is that they are “conclusive records made or used in adjudicating
guilt.” Id. at 21; see id. at 23 (“confin[ing]” the class of permissible documents “to

9

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 10 of 24

records of the convicting court approaching the certainty of the record of conviction”). That accords with their function in the modified categorical approach—
namely, to permit the court to identify the elements for which the defendant was
convicted. Descamps, 133 S. Ct. at 2284.
Importantly, and as the Supreme Court explained in Descamps, that inexorable focus on the elements derives in large part from “the categorical approach’s
Sixth Amendment underpinnings.” Id. at 2287–88. Other than the fact of a prior
conviction, a jury must find beyond a reasonable doubt any fact that increases a defendant’s sentence beyond the prescribed statutory maximum. Id. at 2288 (citing
Apprendi v. New Jersey, 530 U.S. 466, 490 (2000)). The reason for the “prior conviction” exception is that, during the earlier criminal proceeding, the defendant either
had a jury or waived his constitutional right to one. See Apprendi, 530 U.S. at 488.
As the Supreme Court made clear in Descamps, the use of Shepard documents “merely assists the sentencing court in identifying the defendant’s crime of
conviction, as we have held the Sixth Amendment permits.” 133 S. Ct. at 2288. This
is so because “the only facts the court can be sure the jury . . . found [beyond a reasonable doubt] are those constituting elements of the offense;” and, similarly, “when
a defendant pleads guilty to a crime, he waives his right to a jury determination of
only that offense’s elements.” Id. But where a court relies on non-Shepard documents to increase a defendant’s sentence, it “extend[s] judicial fact finding” “beyond
merely identifying a prior conviction,” violating the Sixth Amendment. Id.

10

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 11 of 24

In sum, in determining whether a conviction qualifies as a violent felony, a
court must generally consider only the statute and judgment of conviction. Only if
the statute is divisible may the court consider Shepard documents, and it may do so
only for the sole purpose of ascertaining the statutory elements for which the defendant was convicted. Once those elements are identified, the court must determine whether the least of the acts prohibited thereby constitutes a generic offense
enumerated in the ACCA or necessarily requires the use, attempted use, or threatened use of violent, physical force against another. In no case may a court rely on
non-Shepard documents or analyze whether the defendant’s underlying conduct
constituted a violent felony.
V.

Mr. Franklin is No Longer an Armed Career Criminal
In this case, the record reflects that the court relied on the following convic-

tions to enhance the applicant’s sentence under the ACCA: (1)(a) a 1986 State of
Florida conviction for Armed Robbery With a Firearm, (1)(b) for Attempted Armed
Robbery, and (1)(c) for Aggravated Assault; (2) a 1986 State of Florida Conviction
for Battery on a Law Enforcement Officer; and (3) a 1996 State of Florida Armed
Robbery conviction. In light of Johnson, the applicant no longer has three qualifying “violent felonies” and is therefore no longer an armed career criminal, as explained below.
In regards to the 1986 State of Florida conviction for Armed Robbery With a
Firearm, in United States v. Lockley, 632 F.3d 1238 (11th Cir. 2011), this Court
found a 2001 conviction for attempted robbery under Fla. Stat. §812.13(1) was a

11

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 12 of 24

“crime of violence” within both the elements and residual clauses of the Career Offender provision of the Guidelines. Notably, though, Johnson has since abrogated
Lockley’s residual clause holding, and Moncrieffe and Descamps have together abrogated its elements clause holding.
Lockley expressly acknowledged that §812.13(1) – by its terms – did not constitute an exact match to the elements clause because “putting in fear” did not “specifically require the use or threatened use of physical force against the person of another.” 632 F.3d at 1245. Despite that, however, the Court found that a §812.13(1)
conviction satisfied the elements clause, because in its view it was “inconceivable
that any act which causes the victim to fear death or great bodily harm would not
involve the use or threatened use of physical force.” Id. But that “inconceivability
analysis” cannot be squared with the strict categorical analysis now dictated by
Moncrieffe and Descamps. The elements clause assumptions in Lockley have been
directly abrogated by these intervening Supreme Court precedents which now mandate an element-by-element comparison, and preclude enhancement whenever there
is a “mismatch” in “elements.”
Moreover, Descamps has exposed another flaw in Lockley’s assumptions by making clear that the intent element in any §812.13 offense is categorically overbroad
vis-a-vis an offense within the elements clause. According to the Supreme Court,
the term “use” in the phrase “use, attempted use, or threatened use of physical force
against the person of another” requires an “active employment” of force, which
“most naturally” requires a high degree of intent. Leocal v. Ashcroft, 543 U.S. 1, 10

12

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 13 of 24

(2004). But notably, according to the Florida courts’ own interpretation of a robbery
by “putting in fear” – caselaw Lockley did not consider, but must be considered and
deferred to after Descamps – a conviction under §812.13(1) for a robbery by “putting
in fear” only requires proof that a “reasonable person” in the victim’s position would
be “put in fear” during “the course of the taking.” The Florida courts do not require
the State to prove the offender actually intended to put anyone in fear, or that the
victim was actually put in fear. See State v. Baldwin, 709 So.2d 636 (Fla. 2nd DCA
1998); Brown v. State, 397 So.2d 1153 (Fla. 5th DCA 1981).
Finally, close examination of Florida’s standard robbery instruction suggests
that the crucial second element for conviction – that “force, violence, assault, or putting in fear was used in the course of the taking” – is indivisible under Descamps.
By its terms, the instruction indicates there are only four true “elements” of a
§812.13 robbery offense; that the second “element” (“[f]orce, violence, assault, or
putting in fear was used in the course of the taking”) is a list of “alternative means”
of committing a single robbery offense; and that the jury need not agree unanimously on a “means.” Each juror simply must find that either “force,” or “violence,” or
“assault,” or “putting in fear” “was used in the course of the taking.” Therefore, according to Descamps, the second element of a §812.13 offense is indivisible.
And notably, it is clear from Florida case law that at least one additional means
of committing robbery – by “use of force” – sweeps more broadly than the ACCA’s
elements clause, since the quantum of “force” required for conviction is not the
Johnson level of “violent force.” See, e.g., Sanders v. State, 769 So.2d 506 (Fla. 5th

13

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 14 of 24

DCA 2000) (affirming strong-arm robbery conviction under Fla. Stat. §812.13, and
rejecting defendant’s claim that he was only guilty of the newly-created “robbery by
sudden snatching” crime under §812.131 because the State simply showed he had
peeled back the victim’s fingers before snatching money from out of his hand; explaining that the victim’s “clutching of his bills in his fist as Sanders pried his fingers open could have been viewed by the jury as an act of resistance against being
robbed by Sanders;” confirming that no more resistance, or “force,” than that was
necessary for a conviction under §812.13(1)).
It is clear from Sanders that the quantum of “force” necessary to “overcome a
victim’s resistance” will vary depending upon the type and degree of resistance by
the victim, and that if the victim’s resistance is slight, the “force” necessary to overcome it – and seal a “strong-arm” robbery conviction in Florida – is likewise slight.
Since the type of violent, pain-causing, injury-risking force required by Curtis Johnson v. United States, 559 U.S. 133, 140 (2010) is not necessary in every §812.13(1)
case, and a person may be found guilty of “strong-arm” robbery in Florida from using only de minimis force, the statute is categorically overbroad for this reason as
well. And, post-Descamps, a conviction under a “categorically overbroad” statute
cannot be an ACCA predicate. See 133 S.Ct. at 2285-2286, 2293.
In addition, in regards to the 1986 State of Florida conviction for Armed Robbery
With a Firearm, Mr. Franklin was sentenced for “armed robbery” under Fla. Stat.
§812.13(2)(1986) does not change the above analysis. As a threshold matter, it is
clear from the standard robbery instruction at the time of Mr. Franklin’s conviction,

14

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 15 of 24

that in 1986 Fla. Stat. §812.13(2)(a) and (b) were simply penalty enhancement provisions, not separate enhanced “offenses” with additional “elements.” Notably – and
differently than today – juries were not instructed in 1986 that they needed to find
that the state proved any of the “aggravating circumstances” in the statute (“carrying,” of some “weapon,” “in the course of committing a robbery”) beyond a reasonable doubt. Therefore, according to Descamps, the fact that Mr. Franklin’s underlying robbery conviction under §812.13(1) was categorically overbroad, ends the ACCA elements clause inquiry. Mr. Franklin’s ACCA sentence cannot be upheld based
upon judicial findings as to facts on which he never had the protection of the Sixth
Amendment. Descamps, 133 S.Ct. at 2289.
But notably, even if Mr. Franklin’s state court judge or a jury had been required
to find the “aggravating circumstances” in §§812.13(2)(1986) beyond a reasonable
doubt, that would not change the result now dictated by Descamps in any manner,
since each of the “aggravating circumstances” in §812.13(2)(1986) is itself categorically overbroad vis-a-vis the ACCA’s element clause.
First, §812.13(2)(1986) permits a sentence enhancement for “armed robbery”
simply for “carrying” a weapon, which does not necessitate either using it, brandishing it in a threatening manner, or even visibly displaying it. According to State v.
Baker, 452 So.2d 927 (Fla. 1984), it simply requires “possessing” it. See id. at 929
(“The victim may never even be aware that a robber is armed, so long as the perpetrator has the weapon in his possession during the offense.”). In United States v.
Archer, 531 F.3d 1347 (2008), this Court expressly held that the mere act of “carry-

15

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 16 of 24

ing” a weapon, and specifically a firearm, “does not involve the use, attempted use,
or threatened use of force, and so is not a crime of violence under [the elements
clause.” Id. at 1349 (emphasis added).
Second, the word “weapon” in §812.13(2)(b) [or “deadly weapon” in §812.13(2)(a)]
is not only indeterminate but categorically overbroad vis-a-vis any offense within
the elements clause. Poison, anthrax, and chemical weapons are “weapons” that
may easily cause death without the “use” of any “physical force.” Other courts, notably, have declared convictions overbroad and outside the elements clause for precisely this reason. See, e.g,, United States v. Perez-Vargas, 414 F.3d 1282 (10th Cir.
2005); United States v. Torres-Miguel, 701 F.3d 165, 168-169 (4th Cir. 2012); Matter
of Guzman-Polanco, 26 I & N Dec. 713, 717-718 (BIA Feb. 24, 2016). And although
the Florida legislature has expressly defined the term “weapon” in Fla. Stat.
§790.001(13) to include a “chemical weapon,” under Florida law, the list of “weapons” in §790.001(13) has never limited the universe of items that may qualify a
Florida defendant for an “armed robbery” enhancement. Juries and courts have always been permitted to use the much broader, open-ended definition of “weapon” in
the standard §812.13 instruction, pursuant to which “any object that could be used
to cause death or inflict serious bodily injury” qualifies as a “weapon.” Significantly,
that definition creates an “objective test,” pursuant to which any item could qualify
as a “weapon,” if it caused great bodily harm to the victim “during the course of the
robbery,” even if that was not the defendant’s intent. See Williams v. State, 651

16

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 17 of 24

So.2d 1242, 1243 (Fla. 2nd DCA 1995)(under this “objective test,” even coffee could
trigger enhanced penalty for “armed robbery,” if it caused great bodily harm).
Finally,

the

phrase

“in

the

course

of

committing

the

robbery”

in

§§812.13(2)(1986), is itself broadly defined in a separate provision, §812.13(3)(a),
which explains: “An act shall be deemed ‘in the course of committing the robbery” if
it occurs in an attempt to commit a robbery or in flight after the attempt or commission.” Because of that expansive definition, Florida courts have upheld an enhanced
penalty for “armed robbery” upon evidence that a defendant simply stole a gun after
robbing a victim of money and other property, and fled with the gun as part of the
“loot.” State v. Brown, 496 So.2d 194 (Fla. 3rd DCA 1986) (defendant’s conduct “fell
within the unequivocal reach of the armed robbery provision,” even if he did not
“carry” the firearm during the “taking of the proceeds” from the cash register, because he then stole a gun from under the cash register, and fled the scene with it).
Such conduct plainly involves no more than knowing, illegal “possession” of a firearm, which this Court has held is not a “violent felony” under the ACCA. United
States v. McGill, 618 F.3d 1273, 1279 (11th Cir. 2010).
Although a panel of the Eleventh Court of Appeals noted in 2006 that it had
“conclud[ed] without difficulty,” that a Florida armed robbery conviction was “undeniably a conviction for a violent felony,” United States v. Dowd, 451 F.3d 1244, 1255
(11th Cir. 2006), it offered nothing beyond “[s]ee 18 U.S.C. §924(e)(2)(B)(i)” to support that “undeniable” conclusion. There is no stated analysis in the opinion, and it
is therefore unclear what the panel relied upon to reach that conclusion.

17

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 18 of 24

Moreover, Dowd was decided prior to Archer (in 2010); Curtis Johnson v. United
States, 559 U.S. 133 (2010) (Johnson I); United States v. Welch, 683 F.3d 1304 (11th
Cir. 2012); Moncrieffe (in 2013); and Descamps (in 2013 as well). And the Dowd
panel’s presumption that a 1975 Florida “armed robbery” conviction was “undeniably” an offense within the ACCA’s elements clause cannot be squared with the
strict, element-by-element comparison now required by the categorical approach.
This Court has long recognized that its “first duty” is always “to follow the dictates of the United States Supreme Court,” and it “must consider” whether intervening Supreme Court decisions have “effectively overruled” a prior precedent.
United States v. Contreras, 667 F.2d 976, 979 (11th Cir. 1982). In similar circumstances, the Court has easily declared prior precedents “effectively overruled.” See
Dawson v. Scott, 50 F.3d 884, 892 n. 20 (11th Cir. 1995); Archer, 531 F.3d at 1352;
United States v. Howard, 742 F.3d 1334, 1337, 1343-1345 (11th Cir. 2014); see also
Scalia, Antonin, J., The Rule of Law as a Law of Rules, 56 U. Chi. L. Rev. 1175,
1177 (1989) (lower courts are not only bound by the narrow “holdings” of higher
court decisions, but also by their “mode of analysis”). Based upon the different
“mode of analysis” now dictated by Archer, Curtis Johnson, Welch, Moncrieffe, and
Descamps, Dowd has been effectively overruled at this time.
Although a panel of this Court recently found after reviewing a pro se inmate’s application to file a second or successive §2255 motion in light of Johnson,
that a Florida “armed robbery” conviction “appears to contain ‘as an element the
use, attempted use, or threatened use of physical force against the person of anoth-

18

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 19 of 24

er,” and that “[n]either Johnson nor any other case” suggests that such a conviction
did not count as an ACCA predicate,” In re Robinson, ___ F.3d ___, 2016 WL
1583616 (11th Cir. April 19, 2016), none of the above-cited cases were cited by Mr.
Robinson, nor did he make any of the above arguments in his pro se application.
However, even assuming Mr. Robinson did not show a “reasonable likelihood” that
his pro se challenge to a Florida armed robbery conviction had “possible merit,” Mr.
Franklin here has made a completely different, much stronger showing sufficient to
“warrant fuller exploration by the district court. Holladay, 331 F.3d at 1173-74.
In regards to the related 1986 State of Florida Attempted Armed Robbery conviction, if a 1986 State of Florida conviction for Armed Robbery With a Firearm does
not qualify, a 1986 State of Florida conviction for Attempted Armed Robbery can’t
qualify as a violent felony under the ACCA.
In regards to the related State of Florida conviction for Aggravated Assault, a
conviction for “aggravated assault” under Fla. Stat. §784.021 is not a violent felony
within the ACCA’s elements clause because the Florida courts have held that a person may be convicted under §784.021 upon a mens rea of “culpable negligence,”
which is akin to recklessness. See LaValley v. State, 633 So.2d 1126 (Fla. 5th DCA
1995); Kelly v. State, 552 So.2d 206 (Fla. 5th DCA 1989); Green v. State, 315 So.2d
499 (4th DCA 1975); and DuPree v. State, 310 So.2d 396 (Fla. 2nd DCA 1975); see
generally United States v. Garcia-Perez, 779 F.3d 278, 285 (5th Cir. 2015) (equating
Florida’s “culpable negligence” standard with “recklessness”).

19

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 20 of 24

For an offense to be a violent felony within the ACCA’s elements clause, however, it must have as an element the active and intentional employment of force,
which requires more than negligence or recklessness. See Leocal v. Ashcroft, 543
U.S. 1, 9-10 (2004) (the term “use” in the similarly-worded elements clause in 18
U.S.C. §16(a) requires “active employment;” the phrase “use . . . of physical force” in
a crime of violence definition “most naturally suggests a higher degree of intent
than negligent or merely accidental conduct”); United States v. Palomino Garcia,
606 F.3d 1317, 1334-1336 (11th Cir. 2010) (because Arizona “aggravated assault”
need not be committed intentionally, and could be committed recklessly, it did not
“have as an element the use of physical force;” citing and following Leocal).
Admittedly, in Turner v. Warden Coleman FCI, 709 F.3d 1328 (11th Cir. 2013)
the Court held that an aggravated assault conviction under §784.021 qualified as a
violent felony within the ACCA’s elements clause since “by its definitional terms,
the offense necessarily includes an assault which is ‘an intentional, unlawful threat
by word or act to do violence to the person of another, coupled with an apparent
ability to do so.” Id. at 1338 (emphasis in original). Therefore, the Court reasoned,
“a conviction under section 784.021 will always include ‘as an element the . . .
threatened use of physical force against the person of another.” Id. at 1338 (emphasis in original). The reasoning in Turner, however, is inconsistent with the strict,
element-by-element comparison now required by the categorical approach as clarified in Descamps v. United States, 133 S.Ct. 2276 (2013) and United States v. Howard, 742 F.3d 1334 (11th Cir. 2014).

20

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 21 of 24

In Howard, the Court confirmed that sentencing courts conducting divisibility
analysis “are bound to follow any state court decisions that define or interpret the
statute’s substantive elements because state law is what the state supreme court
says it is”). Id. at 1346. And in Turner, the Court did not consider how Florida
courts interpreted the mens rea element in the underlying assault statute,
§784.011.
Based upon the Florida cases cited above, it is clear that the aggravated assault
statute has been interpreted by the Florida courts to require no more than “culpable
negligence,” which is recklessness.

Therefore, there is no “match” between the

mens rea element in §784.021 and an offense that “has as an element the use, attempted use, or threatened use of physical force against the person of another” as
interpreted in Leocal and Palomino Garcia. As such, a conviction under §784.02 is
categorically overbroad and not a violent felony within the elements clause.
Since the elements clause analysis in Turner has been abrogated, it should not
preclude relief at this time. See, e.g., United States v. Howard, 742 F.3d 1334, 1338
(11th Cir. 2014) (acknowledging that Descamps had unsettled the “settled law” of
this Circuit, and required that the Court revisit its earlier decision in United States
v. Rainer, 616 F.3d 1212, 1213 (11th Cir. 2010); holding that “two crucial aspects of
our decision in Rainer are no longer tenable after Descamps”).
In regards to the 1996 State of Florida Attempted Armed Robbery conviction, for
the same reasons that the 1986 State of Florida conviction for Armed Robbery With
a Firearm does not qualify, and the 1986 State of Florida conviction for Attempted

21

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 22 of 24

Armed Robbery doesn’t qualify the 1996 conviction doesn’t qualify as a violent felony under the ACCA.
CONCLUSION
Because Mr. Franklin no longer qualifies as an armed career criminal, he respectfully requests that this Court grant this § 2255 motion and re-sentence him
without the Armed Career Criminal Act enhancement.

Respectfully Submitted,
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
By: s/ Michael D. Spivack
Michael D. Spivack
Assistant Federal Public Defender
Florida Bar No. 508969
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301
Tel: 954-356-7436
Fax: 954-356-7556
E-Mail: michael_spivack@fd.org

22

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 23 of 24

CERTIFICATE OF SERVICE
I HEREBY certify that on June 24, 2016 , I electronically filed the foregoing
document with the Clerk of the Court using CM/ECF. I also certify that the foregoing document is being served this day on all counsel of record via transmission of
Notices of Electronic Filing generated by CM/ECF.
By: s/ Michael D. Spivack
Michael D. Spivack

23

Case 1:16-cv-22192-CMA Document 9 Entered on FLSD Docket 06/24/2016 Page 24 of 24

SERVICE LIST
JIMMY LEE FRANKLIN v. UNITED STATES OF AMERICA
Case No. 16-22192-CIV-ALTONAGA/WHITE
(06-20709-CR-ALTONAGA)
United States District Court, Southern District of Florida
Michael D. Spivack, Esquire
Michael_Spivack@fd.org
Federal Public Defender’s Office
1 E. Broward Blvd., Suite 1100
Fort Lauderdale, Florida 33301
Tel: (954) 356-7436
Fax: (954) 356-7556
Attorney for Jimmy Franklin
[Service via CM/ECF]

Sean Paul Cronin, Esquire
Sean.P.Cronin@usdoj.gov
United States Attorney’s Office
99 N.E. 4 Street
Miami, Florida 33132
Tel. (305) 961-9194
Attorney for the United States
[Service via CM/ECF]

24

A-5

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 1 of 10

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-22192-CIV-ALTONAGA/White
JIMMY LEE FRANKLIN,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.
/
ORDER
THIS CAUSE came before the Court upon Movant, Jimmy Lee Franklin’s amended
Motion to Correct Sentence Pursuant to 28 U.S.C. § 2255 [ECF No. 9], filed on June 24, 2016.
Respondent, the United States of America, filed an Answer and Memorandum of Law in
Opposition [ECF No. 10] on July 5, 2016 and a Notice of Supplemental Authority [ECF No. 11]
on July 29, 2016. Magistrate Judge Patrick A. White entered a Report of Magistrate Judge [ECF
No. 12], recommending the Motion be denied. Franklin timely filed Objections to the Report
[ECF No. 13] on May 16, 2017. The Government filed its own Objections (“Government
Objections”) [ECF No. 14] as well as a Response to Movant’s Objections [ECF No. 16]. The
Court has reviewed the parties’ written submissions, the record, and applicable law.
When a magistrate judge’s “disposition” is properly objected to, district courts must
review the disposition de novo. FED. R. CIV. P. 72(b)(3). Although Rule 72 is silent on the
standard of review, the United States Supreme Court has determined Congress’s intent was to
require de novo review only when objections are properly filed, not when neither party objects.
See Thomas v. Arn, 474 U.S. 140, 150 (1985); Wanatee v. Ault, 39 F. Supp. 2d 1164, 1169 (N.D.
Iowa 1999) (quoting 28 U.S.C. § 636(b)(1)). Since the parties filed timely objections, the Court

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 2 of 10
CASE NO. 16-22192-CIV-ALTONAGA/White
reviews the record de novo.
I. BACKGROUND
On August 1, 2007, Franklin plead guilty to, and was adjudicated guilty of, one count of
possession of a firearm and ammunition by a convicted felon under 18 U.S.C. sections 922(g)(1)
and 924(e). (See Plea Agreement [CR ECF No. 47]1 ¶ 1; Minute Entry for August 1, 2007
Change of Plea Hearing [CR ECF No. 45]).
The Presentence Investigation Report (“PSI”)2 advised Movant qualified as an armed
career criminal under the Armed Career Criminal Act, 18 U.S.C. section 924(e), which provides
for enhanced sentencing where a criminal defendant violates 18 U.S.C. section 922(g) and has at
least three prior convictions for a violent felony or a serious drug offense. See 18 U.S.C. §
924(e); (see also PSI ¶ 25). The PSI indicated Movant was subject to the ACCA enhancement
because of convictions for violent felonies associated with three separate Florida cases:
1. the “1986 Case,” in which Movant was convicted of: (1) robbery with a
firearm; (2) attempted robbery with a firearm; and (3) aggravated assault;
2. the “1987 Case,”3 in which Movant was convicted of battery on a law
enforcement officer; and
3. the “1996 Case,” in which Movant was convicted of two counts of attempted
armed robbery.
(See id. ¶¶ 25, 31, 32, 38). The PSI did not specify which offenses from each case supported the
ACCA enhancement.
Neither the Government nor Movant filed objections to the PSI. (See Addendum to the
Presentence Report).

Movant was sentenced to a 180-month term of imprisonment, the

References to docket entries in Movant’s criminal case, Case No. 06-20709-CR-ALTONAGA, are
denoted with “CR ECF No.”
1

2

The PSI and its Addendum are not on the public docket.

3

The Government notes a typo in the PSI resulted in the incorrect notation of this case as being from
1988. (See Gov’t’s Resp. to Movant Objs. 1 n.1).

2

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 3 of 10
CASE NO. 16-22192-CIV-ALTONAGA/White
minimum statutory term under the ACCA. (See PSI ¶ 87; Judgment in a Criminal Case [CR
ECF No. 55] 2).
Movant filed his first motion to vacate his sentence under 28 U.S.C. section 2255 —
which was ultimately denied — on January 8, 2009. On January 31, 2011, Movant filed a pro se
petition for habeas corpus under 18 U.S.C. section 1241 in the Middle District of Florida,
challenging his conviction for battery on a law enforcement officer in light of recent Supreme
Court and Eleventh Circuit case law, including Curtis Johnson v. United States, 559 U.S. 133
(2010). (See Answer 3). That petition, too, was denied. (See id., Ex. B, Order (“Middle District
Order”) [ECF No. 10-2]).
On May 17, 2016, Movant filed an application for leave to file a second or successive
motion under 28 U.S.C. section 2255 in light of the United States Supreme Court’s decision in
Johnson v. United States, 135 S. Ct. 2551, 2563 (2015). (See Answer 5). The Eleventh Circuit
Court of Appeals granted Franklin’s application on June 14, 2016. (See generally USCA Order
[ECF No. 1]).
In Johnson, the United States Supreme Court considered the legality of a conviction
under the so-called “residual clause” of the ACCA. The ACCA requires a 15-year mandatory
minimum sentence for a defendant convicted of being a felon in possession of a firearm who also
has three previous convictions for a “violent felony” or “serious drug offense.” See 18 U.S.C. §
924(e)(1).
A “violent felony” is any crime punishable by more than a one-year term that: (1) “has as
an element the use, attempted use, or threatened use of physical force against the person of
another,” 18 U.S.C. § 924(e)(2)(B)(i); or (2) “is burglary, arson, or extortion, involves the use of
explosives, or [(3)] otherwise involves conduct that presents a serious potential risk of physical

3

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 4 of 10
CASE NO. 16-22192-CIV-ALTONAGA/White
injury to another,” id. § 924(e)(2)(B)(ii) (alteration added). The first part of the violent felony
definition, contained in subsection (2)(B)(i), is known as the “elements clause,” while the second
and third parts in subsection (2)(B)(ii) are known as the “enumerated clause” and the “residual
clause,” respectively. In Johnson, the Supreme Court struck down the residual clause as void for
vagueness. See 135 S. Ct. at 2557–60, 2563.
After Johnson’s invalidation of the residual clause, Franklin filed the present Motion
arguing he no longer qualifies as an armed career criminal under the ACCA since he does not
have three qualifying convictions for violent felonies under the ACCA’s elements or enumerated
clauses. (See Mot. 11–22).
II. ANALYSIS
Franklin can proceed on the Motion if: (1) it is unclear from the record which clause the
Court relied on in applying the ACCA enhancement; and (2) Franklin’s prior convictions no
longer qualify him for the ACCA sentencing enhancement after Johnson. See Leonard v. United
States, No. 16-22612-CIV, 2016 WL 4576040, at *2 (S.D. Fla. Aug. 22, 2016) (citation omitted);
see also In re Chance, 831 F.3d 1335, 1339–41 (11th Cir. 2016); but see In re Moore, 830 F.3d
1268, 1271–72 (11th Cir. 2016). As the record is not clear regarding whether Movant was
sentenced under the ACCA’s residual clause as opposed to the elements or enumerated clause
(see Report 14–15; see also PSI ¶ 25), the Court focuses on whether Movant has three prior
convictions that still qualify as violent felonies after Johnson.
As discussed, Movant’s ACCA enhancement was based upon three prior Florida cases:
(1) the 1986 Case involving convictions for robbery with a firearm, attempted robbery with a
firearm, and aggravated assault; (2) the 1987 Case involving a conviction for battery on a law

4

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 5 of 10
CASE NO. 16-22192-CIV-ALTONAGA/White
enforcement officer; and (3) the 1996 Case involving two convictions for attempted armed
robbery.4
To determine whether an offense qualifies as a violent felony under the ACCA, courts
apply the “categorical approach” or the “modified categorical approach” depending on the statute
of conviction. See, e.g., Johnson, 135 S. Ct. at 2557; see also Welch v. United States, 136 S. Ct.
1257, 1262 (2016) (“The categorical approach is the framework the Court has applied in
deciding whether an offense qualifies as a violent felony under the Armed Career Criminal
Act.”).
If the statute is indivisible — that is, if it lists only one set of elements for committing the
offense — courts apply the categorical approach. See Descamps v. United States, 133 S. Ct.
2276, 2283 (2013). Under the categorical approach, a court is limited to looking at the statute’s
definition, i.e., the elements of a defendant’s prior convictions and not the facts underlying the
prior offenses. See id.; Mathis v. United States, 136 S. Ct. 2243, 2246 (“[T]he underlying brute
facts or means of commission . . . make[] no difference; even if [the defendant’s] conduct fits
within the generic offense, the mismatch of elements saves the defendant from an ACCA
sentence.” (citation and internal quotation marks omitted; alterations added)).

At the outset, the Court acknowledges Movant’s argument he does not have three separate convictions
for sentencing purposes from the 1986 Case or two separate convictions from the 1996 Case. (See
Movant Objs. 1–2; Gov’t Resp. to Movant Objs. 1–2). The ACCA permits an enhancement for three
previous convictions for a violent felony “committed on occasions different from one another.” 18
U.S.C. § 924(e)(1). Movant maintains the armed robbery, attempted armed robbery, and aggravated
assault in the 1986 Case “arose from the same criminal event” and so “must be counted as one
conviction.” (Movant Objs. 2 (citing United States v. Sweeting, 933 F.2d 962, 967 (11th Cir. 1991))).
The Government concedes the PSI indicates these three crimes “took place simultaneously” and therefore
were not committed on different occasions for ACCA enhancement purposes. (Gov’t Resp. to Movant
Objs. 2). Similarly, Movant’s two attempted armed robbery convictions from the 1996 Case are
considered one conviction for purposes of the ACCA enhancement. (See id.). As a result, in order for
Movant’s sentence to stand, each of the three Florida cases must contain at least one conviction for a
violent felony.
4

5

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 6 of 10
CASE NO. 16-22192-CIV-ALTONAGA/White
The modified categorical approach is reserved for analyzing ACCA enhancements under
divisible statutes, which provide multiple alternative elements capable of satisfying the offense.
See Descamps, 133 S. Ct. at 2281. A court applying the modified categorical approach may
consider a limited class of documents known as Shepard5 documents to determine which of the
possible elements of an alternatively worded statute were factually satisfied by a defendant’s
conduct. See id. at 2283–84.
The Court considers the 1986, 1987, and 1996 Cases to determine whether each involved
a conviction that still qualifies as a violent felony after Johnson.
Armed Robbery. Movant was convicted of one count of armed robbery in the 1986 Case.
Florida defines “robbery” as “the taking of money or other property which may be the subject of
a larceny from the person or custody of another . . . when in the course of the taking there is the
use of force, violence, assault, or putting in fear.” FLA. STAT. § 812.13(1) (alteration added).
Armed robbery occurs “[i]f in the course of committing the robbery the offender carried a
firearm or other deadly weapon.” Id. § 812.13(2)(a) (alteration added).
Since the filing of the Motion, the Eleventh Circuit has held a conviction for armed
robbery categorically qualifies as a violent felony under the ACCA’s elements clause. See
United States v. Fritts, 841 F.3d 937, 943–44 (11th Cir. 2016). Fritts explained the Eleventh
Circuit’s prior precedents in United States v. Dowd, 451 F.3d 1244 (11th Cir. 2006), and United
States v. Lockley, 632 F.3d 1238 (11th Cir. 2011), already indicated Florida armed robbery and
Florida robbery, even without a firearm, both qualify as violent felonies. See Fritts, 841 F.3d at
939–42. Movant argues Dowd and Lockley “cannot be squared with the strict categorical
analysis now dictated” by subsequent Supreme Court precedent. (Movant Objs. 3). But Fritts
5

Shepard v. United States, 544 U.S. 13 (2005).

6

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 7 of 10
CASE NO. 16-22192-CIV-ALTONAGA/White
ensures their holdings remain good law even after the Supreme Court’s subsequent refining of
the categorical approach. See 841 F.3d at 940–42.
Accordingly, Movant’s 1986 conviction for armed robbery qualifies as a violent felony
under the ACCA and constitutes his first of three prior convictions sustaining the ACCA
enhancement.6
Attempted Armed Robbery. Movant was convicted of two counts of attempted armed
robbery in the 1996 Case.7 The ACCA’s elements clause encapsulates violent felonies that have
as an element “the use, attempted use, or threatened use of physical force.”

18 U.S.C.

§ 924(e)(2)(B)(i) (emphasis added). Armed robbery categorically qualifies as a violent felony;
by extension, attempted armed robbery qualifies also. (See Report 20 (citing Lockley, 632 F.3d
at 1245) (explaining Lockley found attempted robbery satisfied the elements clause of the “crime
of violence” provision in the Sentencing Guidelines)). Thus, Movant’s 1996 convictions for
attempted armed robbery stand as the second prior conviction supporting his ACCA
enhancement.
Battery on a Law Enforcement Officer. Movant was convicted of battery on a law
enforcement officer in the 1987 Case. Movant previously challenged the battery’s status as a
violent felony in a 28 U.S.C. section 2241 petition which was denied by the Middle District of
Florida (see Government’s Answer, Ex. B, Order in Franklin v. Warden, FCC Coleman –
Medium, Case No. 5:11-cv-43-OC-38TBS (“Middle District Order”) [ECF No. 10-2]); however,
As stated, since Movant’s 1986 convictions for attempted armed robbery and aggravated assault were
not “committed on occasions different from” the 1986 armed robbery, 18 U.S.C. § 924(e)(1), the Court
does not address those offenses. Because these three convictions were part of the same criminal episode,
they constitute one prior conviction for the purposes of the ACCA enhancement.
6

7

As with the 1986 Case, the two attempted armed robbery convictions in the 1996 Case were part of the
same criminal event and can only count as one conviction for the ACCA enhancement. Movant was also
convicted of one count of attempted armed robbery in the 1986 Case.

7

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 8 of 10
CASE NO. 16-22192-CIV-ALTONAGA/White
the present Motion does not at all discuss whether the offense is a violent felony, instead
focusing on armed robbery, attempted armed robbery, and aggravated assault (see generally
Mot.). For its part, the Government maintains battery on a law enforcement officer qualifies as a
violent felony. (See Gov’t’s Answer 8–11; Gov’t Objs. 7–9).
The felony offense of battery on a law enforcement officer under Florida Statutes section
784.07(2)(b) requires the same conduct as misdemeanor battery under Florida Statutes section
784.03(1)(a), with the added element the battery is directed against a law enforcement officer. A
battery occurs when a person either: (1) “[a]ctually and intentionally touches or strikes another
person against the will of the other,” or (2) “[i]ntentionally causes bodily harm to another
person.” Curtis Johnson v. United States, 559 U.S. 133, 136 (2010) (alterations in original)
(quoting FLA. STAT. § 784.03(1)(a)).
Relying on Curtis Johnson, the Report summarily concludes battery on a law
enforcement officer does not qualify as a violent felony under the ACCA. (See Report 18 (citing
Curtis Johnson, 559 U.S. at 136–37) (other citations omitted)). But Curtis Johnson does not
preclude use of a Florida battery conviction to support an ACCA enhancement if violent force
was actually used in committing the battery. Instead, recognizing the battery statute is divisible
and contains disjunctive elements, the Supreme Court determined courts should apply the
modified categorical approach to decide “which version of the offense [the] defendant was
convicted of.” Descamps, 133 S. Ct. at 2284 (alteration added); see Curtis Johnson, 559 U.S. at
136.
Under the modified categorical approach, the Court may consider Shepard documents
including charging documents, plea agreements, and transcripts of plea colloquies to determine
which statutory phrase describes Movant’s conviction.

8

Curtis Johnson, 559 U.S. at 144

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 9 of 10
CASE NO. 16-22192-CIV-ALTONAGA/White
(citations omitted). Undisputed statements in a presentence investigation report may also be
considered.

United States v. McCloud, 818 F.3d 591, 595–96 (11th Cir. 2016) (citations

omitted).
Movant did not object to the PSI and its summary of the battery offense. (See Gov’t
Objs. 9–10 (citing Middle District Order)). He has not argued his battery conviction no longer
qualifies as a violent felony after Johnson. (See Gov’t Resp. to Movant Objs. 2). Accordingly,
Movant’s conviction for battery on a law enforcement officer constitutes a third prior conviction
for a violent felony, which, together with the convictions for armed robbery and attempted armed
robbery, sustain his ACCA enhancement.
III. CERTIFICATE OF APPEALABILITY
A certificate of appealability “may issue . . . only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2) (alteration added). The
Supreme Court has described the limited circumstances when a certificate of appealability should
properly issue after the district court denies a habeas petition:
Where a district court has rejected the constitutional claims on the merits, the
showing required to satisfy § 2253(c) is straightforward: The [Movant] must
demonstrate that reasonable jurists would find the district court’s assessment of
the constitutional claims debatable or wrong.
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (alteration added). Movant does not satisfy his
burden, and the Court will not issue a certificate of appealability
IV. CONCLUSION
For the foregoing reasons, it is
ORDERED AND ADJUDGED that the Report [ECF No. 12] is ACCEPTED AND
ADOPTED as follows:
1. Movant, Jimmy Lee Franklin’s Motion [ECF No. 9] is DISMISSED.
9

Case 1:16-cv-22192-CMA Document 17 Entered on FLSD Docket 07/17/2017 Page 10 of 10
CASE NO. 16-22192-CIV-ALTONAGA/White
2. A certificate of appealability shall NOT ISSUE.
3. The Clerk of the Court is directed to CLOSE this case, and all pending motions are
DENIED as moot.
DONE AND ORDERED in Miami, Florida, this 17th day of July, 2017.

__________________________________
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE
cc:

Magistrate Judge Patrick A. White;
counsel of record

10

A-6

Case 1:16-cv-22192-CMA Document 20 Entered on FLSD Docket 08/11/2017 Page 1 of 3

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-22192-CIV-ALTONAGA/White
JIMMY LEE FRANKLIN,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.
/
ORDER
THIS CAUSE came before the Court upon Movant, Jimmy Lee Franklin’s Motion to
Alter or Amend Judgment Pursuant to Federal Rule of Civil Procedure 59(e) (“Motion”) [ECF
No. 19], filed August 8, 2017. The Court has carefully considered the Motion. The parties are
directed to the Court’s July 17 Order [ECF No. 17] accepting and adopting the Report of
Magistrate Judge [ECF No. 12] for a recitation of the facts.
Federal Rule of Civil Procedure 59(e) allows a party the ability to seek post-trial relief in
the form of a motion to alter or amend judgment. See FED. R. CIV. P. 59(e). “The only grounds
for granting [a Rule 59] motion are newly-discovered evidence or manifest errors of law and
fact.” Arthur v. King, 500 F.3d 1335, 1343 (11th Cir. 2007) (alteration in original) (quoting In re
Kellogg, 197 F.3d 1116, 1119 (11th Cir. 1999)). A party may not use Rule 59 to relitigate old
matters or present arguments and evidence that could have been presented prior to the entry of
judgment. See id. at 1343 (quoting Michael Linet, Inc. v. Village of Wellington, Fla., 408 F.3d
757, 763 (11th Cir. 2005)). “[T]he decision to alter or amend a judgment is committed to the
sound discretion of the district court.” Mitra v. Glob. Fin. Corp., No. 08-80914-CIV, 2009 WL

Case 1:16-cv-22192-CMA Document 20 Entered on FLSD Docket 08/11/2017 Page 2 of 3
CASE NO. 16-22192-CIV-ALTONAGA/White
2423104, at *1 (S.D. Fla. Aug. 6, 2009) (alteration added) (citing O’Neal v. Kennamer, 958 F.2d
1044, 1047 (11th Cir. 1992)).
During its application of the modified categorical approach in the July 17 Order, the
Court considered the unobjected-to summary of Movant’s 1987 battery on a law enforcement
officer offense, as stated in the PSI, to determine whether the offense qualified as a prior
conviction for a violent felony so as to sustain an enhancement under the Armed Career Criminal
Act. (See Order 7–9). Movant asserts the Court’s “reliance on the Presentence Report as a
Shepard document was a manifest error and thus, grounds for granting” his Motion to Correct
Sentence Pursuant to 28 U.S.C. § 2255 (“Habeas Motion”) [ECF No. 9].

(Mot. 1).

Alternatively, Movant appears to suggest a proper application of the modified categorical
approach, including consideration of the PSI, would indicate the battery on a law enforcement
officer was not a violent felony. (See id. 5–7).
This is the first time Movant has made any argument regarding his battery-on-a-lawenforcement-officer conviction. He did not raise the claim the battery conviction is not a violent
felony in his Application for Leave to File a Second or Successive Motion. (See Application
[ECF No. 1] 6–36). The amended Habeas Motion and Movant’s Objections [ECF No. 16] do not
analyze whether battery on a law enforcement officer is a violent felony — despite the Government’s
discussion of the subject (see Answer [ECF No. 10] 8–11). The Court examined the conviction to
address the Government’s Objections [ECF No. 14] to the Report’s finding battery on a law
enforcement officer categorically does not qualify as a violent felony. (See id. 7–9).

There is no error with regard to the Court’s use of the PSI because the Court properly
relied on the PSI prepared for the Movant’s sentence at issue in this habeas proceeding, not the
PSI of an unrelated case. See United States v. Ramirez-Flores, 743 F.3d 816, 823 (11th Cir.
2014) (citation omitted) (considering undisputed facts in a presentence report in using modified
2

Case 1:16-cv-22192-CMA Document 20 Entered on FLSD Docket 08/11/2017 Page 3 of 3
CASE NO. 16-22192-CIV-ALTONAGA/White
categorical approach); cf. United States v. Braun, 801 F.3d 1301, 1305–06 (11th Cir. 2015)
(holding a sentencing court may not rely on a presentence report from an unrelated proceeding
and the district court erred in relying on the PSI prepared for a prior conviction for felony
possession of a firearm). Movant alternatively asks the Court to consider legal arguments that
were not raised in his original Application and the Habeas Motion (see Mot. 5–7), but Rule 59(e)
forecloses presentation of arguments that were available to Movant before the judgment, see
Arthur, 500 F.3d at 1343 (citation omitted).
For the foregoing reasons, it is
ORDERED AND ADJUDGED that the Motion [ECF No. 19] is DENIED.

The

language in the Court’s July 17 Order [ECF No. 17] is revised to state the Habeas Motion [ECF
No. 9] is DENIED.
DONE AND ORDERED in Miami, Florida, this 11th day of August, 2017.

__________________________________
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE
cc:

Jimmy Lee Franklin, pro se;
Magistrate Judge Patrick A. White;
counsel of record

3

A-7

Case: 17-14495

Date Filed: 05/30/2019

Page: 1 of 4

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 17-14495-HH
________________________
JIMMY LEE FRANKLIN,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________

Before: TJOFLAT, WILSON and BRANCH, Circuit Judges.
BY THE COURT:
Jimmy Franklin, a federal prisoner proceeding with counsel, appeals the district court’s
denial of his counseled and authorized second 28 U.S.C. § 2255 motion to vacate, raising a
challenge to his sentence under Johnson v. United States, 135 S. Ct. 2551 (2015), and its denial of
his pro se Fed. R. Civ. P. 59(e) motion to alter or amend the judgment. We summarily granted
Franklin a certificate of appealability (“COA”), in light of the Supreme Court’s vacatur of the
previous denial of Franklin’s motion for a COA. Before briefing, the government and Franklin
jointly filed a motion for summary reversal of the district court’s order denying his § 2255 motion.
Summary disposition is appropriate either where time is of the essence, such as “situations
where important public policy issues are involved or those where rights delayed are rights denied,”

Case: 17-14495

Date Filed: 05/30/2019

Page: 2 of 4

or where “the position of one of the parties is clearly right as a matter of law so that there can be
no substantial question as to the outcome of the case, or where, as is more frequently the case, the
appeal is frivolous.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
In a § 2255 proceeding, we review a district court’s legal conclusions de novo and its
factual findings for clear error. Farris v. United States, 333 F.3d 1211, 1216 (11th Cir. 2003).
The Armed Career Criminal Act (“ACCA”) defines the term “violent felony” as any crime
punishable by a term of imprisonment exceeding one year that:
(i)

has as an element the use, attempted use, or threatened use of physical force
against the person of another; or

(ii)

is burglary, arson, or extortion, involves use of explosives, or otherwise
involves conduct that presents a serious potential risk of physical injury to
another.

18 U.S.C. § 924(e)(2)(B). The first prong of this definition is sometimes referred to as the
“elements clause,” while the second prong contains the “enumerated crimes” and, finally, what is
commonly called the “residual clause.” United States v. Owens, 672 F.3d 966, 968 (11th Cir.
2012). On June 26, 2015, the Supreme Court in Johnson held that the residual clause of the ACCA
is unconstitutionally vague because it creates uncertainty about how to evaluate the risks posed by
a crime and how much risk it takes to qualify as a violent felony. Johnson, 135 S. Ct. at 2557-58,
2563. Thereafter, the Supreme Court held that Johnson announced a new substantive rule that
applies retroactively to cases on collateral review. Welch v. United States, 136 S. Ct. 1257, 126465, 1268 (2016).
In Beeman, we held that a § 2255 movant must prove that it was “more likely than not”
that the use of the residual clause led the sentencing court to impose the ACCA enhancement.
Beeman v. United States, 871 F.3d 1215, 1221-22 (11th Cir. 2017), cert. denied, 139 S. Ct. 1168
(2019). In doing so, we rejected the movant’s premise that a Johnson movant had met his burden
2

Case: 17-14495

Date Filed: 05/30/2019

Page: 3 of 4

unless the record affirmatively showed that the district court relied upon the ACCA’s elements
clause. Id. at 1223. We clarified that the relevant issue is one of historical fact—whether at the
time of sentencing the defendant was sentenced solely under the residual clause. Id. at 1224 n.5.
Moreover, we determined that, as the movant had not suggested a remand for an evidentiary
hearing and chose to proceed on the basis of the record as it existed instead, we could address in
the first instance whether he could carry his burden of proving a Johnson claim under the
appropriate standard. Id. at 1221.
In Pickett, we vacated and remanded the district court’s grant of the movant’s second
§ 2255 motion, where the district court granted relief pursuant to Johnson and Welch in part
because it was unclear from the record whether he had been sentenced under the elements or the
residual clause. United States v. Pickett, 916 F.3d 960, 962-63, 967 (11th Cir. 2019). Both parties
acknowledged that the burden announced in Beeman was applicable and agreed that the record
was silent as to which clause was on the district court’s mind when it applied the ACCA
enhancement. Id. at 963-64. We stated that it was unclear whether and under which clause the
movant’s ACCA predicate offenses qualified as violent felonies at the time of his sentencing. Id.
at 964-66. Nevertheless, we held that remand was appropriate because the parties had no occasion
to address the requirements established in Beeman in the district court, and the district court was
in a better position to review in the first instance what likely happened, especially because we were
remanding the case to the same judge who initially sentenced the movant. Id. at 967.
Here, remand is appropriate. Both parties indicate that they do not wish to rest on the
record as it exists. See Beeman, 871 F.3d at 1221. As this case’s circumstances align almost
identically to those in Pickett, we will follow Pickett’s remedy to allow the parties to present their

3

Case: 17-14495

Date Filed: 05/30/2019

Page: 4 of 4

arguments about Beeman and to allow the district court to decide the issue in the first instance.
Pickett, 916 F.3d at 967; Davis, 406 F.2d at 1162.
Accordingly, the parties’ joint motion for summary reversal is GRANTED.

4

A-8

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 1 of 18

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-cv-22192-CMA
(Underlying Criminal Case No. 06-cr-20709-CMA)
JIMMY LEE FRANKLIN,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.
_____________________________/
SUPPLEMENTAL MEMORANDUM IN SUPPORT OF § 2255 MOTION
This matter is before the Court upon reversal and remand from the Supreme
Court and the Eleventh Circuit.

The Supreme Court granted Mr. Franklin’s

petition for certiorari, vacated the Eleventh Circuit’s judgment denying him a
certificate of appealability (“COA”), and remanded his case to the Eleventh Circuit
to consider the government’s concession that his Florida battery on a law
enforcement officer (BOLEO) conviction was not an ACCA “violent felony” and he
was not an Armed Career Criminal. Franklin v. United States, 139 S.Ct. 1254 (Feb.
25, 2019). Upon remand, the Eleventh Circuit issued Mr. Franklin a COA and set a
briefing schedule. However, the parties filed a joint motion for summary reversal in
light of United States v. Pickett, 916 F.3d 960 (11th Cir. 2019), seeking a remand to
this Court to consider Beeman v. United States, 871 F.3d 1215 (11th Cir. Sept. 22,
2017) in the first instance and determine if Mr. Franklin met his burden of proof
under that case.

1

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 2 of 18

On May 30th, the Court granted that motion, and the mandate issued (see
attached).
In Pickett, the Eleventh Circuit vacated an order granting a § 2255 motion
prior to the issuance of the decision in Beeman because the parties had not had an
opportunity to address Beeman’s requirement that the movant show it is “more
likely than not” that the district court “only relied on the residual clause.” 916 F.3d
at 964, 967. Here, as in Pickett, the Eleventh Circuit has reversed a judgment in a §
2255 case issued prior to Beeman, and in light of Beeman, directed this Court to
clarify its thinking in counting a Florida BOLEO as an ACCA predicate in 2007.
For the reasons set forth below, Mr. Franklin respectfully requests that the
Court find that it is indeed “more likely than not” that it relied only on the residual
clause in counting his Florida BOLEO conviction as an ACCA “violent felony” at the
2007 sentencing, and that under Beeman, Mr. Franklin is therefore entitled to relief
from his ACCA sentence.
PROCEDURAL HISTORY
1. On November 16, 2006, a federal grand jury charged Mr. Franklin with
being a felon in possession of a firearm and ammunition in violation of 18 U.S.C.
§922(g)(1) and §924(e). (CRDE 1).1 On August 8, 2007, Mr. Franklin pled guilty to
that offense. (CRDE 47).

All references to filings in Mr. Franklin’s underlying criminal case, Case No. 0620709-CR-Altonaga, will be cited as “CRDE.” All references to filings in Mr.
Franklin’s § 2255 case, Case No. 16-22192-CIV-Altonaga, will be cited as “DE.”
1

2

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 3 of 18

2.

In the PSI, the probation officer recommended that Mr. Franklin be

sentenced as an Armed Career Criminal because he had three qualifying “violent
felonies,” one of which was a conviction in a 1987 case for battery on a law
enforcement officer (“BOLEO”). (PSI, ¶¶ 25, 32). As an Armed Career Criminal, Mr.
Franklin’s offense level rose from a 22 to a 33; he faced a statutory term of
imprisonment of 15 years to life (rather than 0-10 years); and his advisory
Guideline range increased to 188-235 months imprisonment. (PSI, ¶¶42, 87, 88).
3. Mr. Franklin did not object to the recommended ACCA enhancement, or to
the PSI in any manner.
4.

At the October 16, 2007 sentencing, no mention was made of the

particular definitional clause of the ACCA upon which the probation officer or the
Court was relying. The government stated that it sought a sentence at the low end
of the Guidelines, and since that was the 180-month minimum mandatory, the
Court imposed a 180-month term followed by 5 years supervised release. (CRDE
61).
5.

In June 2015, the Supreme Court declared the residual clause of the

ACCA unconstitutionally vague and void. Samuel Johnson v. United States, 135
S.Ct. 2551 (June 26, 2015). Thereafter, Mr. Franklin sought to file a successor §
2255 motion challenging the legality of his ACCA sentence in light of Johnson’s
elimination of the residual clause, and the Eleventh Circuit authorized him to do so.
In re Jimmy Franklin, Case No. 16-12528-J, Order at 3 (11th Cir. June 14, 2015).

3

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 4 of 18

6. On June 15, 2015, Mr. Franklin filed such a motion, arguing that in light
of Johnson and the elimination of the ACCA’s residual clause, it was now clear that
he had been erroneously sentenced as an Armed Career Criminal. (DE1).
7.

On May 5, 2017, the magistrate judge issued a report recommending

denial of Mr. Franklin’s § 2255 motion.

(DE 12). As a threshold matter, the

magistrate judge found that the standard for determining whether a successor §
2255 motion met the statutory criteria for relief under 28 U.S.C. § 2255(h) was “far
from settled within the Eleventh Circuit,” given the conflicting standards suggested
by dicta in In re Moore, 830 F.3d 1268, 1273 (11th Cir. 2016) and In re Chance, 831
F.3d 1335, 1340 (11th Cir. 2016) (DE 12:7-11). The magistrate judge recommended
following Chance’s suggestion that where it was unclear from the record on which
ACCA clause the judge rested the enhancement, the movant’s burden was only to
show that the sentencing judge “may have used the residual clause.”
Concluding that Mr. Franklin met that burden, the magistrate turned to
whether under current law Mr. Franklin’s priors qualified as ACCA predicates
within the elements clause. Although the magistrate found as a threshold matter
that “[a] conviction for battery on a law enforcement officer does not qualify as a
violent felony for purposes of the ACCA” (DE 12:18, citing Curtis Johnson v. United
States, 559 U.S. 133, 136-37 (2010)), the magistrate found that even without the
BOLEO conviction, Mr. Franklin had three other still-qualifying “violent felonies.”
Accordingly, the magistrate recommended that this Court deny the § 2255, and a
certificate of appealability. (DE 12: 21-23).

4

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 5 of 18

8.

Both parties objected to different aspects of the Report and

Recommendation. Pertinent to the issues herein, the government objected to the
magistrate judge’s rejection of the analysis in Moore, in favor of the analysis in
Chance (DE 14:3-7), and to his finding that Mr. Franklin’s BOLEO was not a
qualifying “violent felony” within the elements clause, under the modified
categorical approach.
9. After the Court reviewed the record de novo, it concurred with the
magistrate judge’s application of Chance. (DE 17: 4). However, the court agreed
with the government that Mr. Franklin remained an Armed Career Criminal even
after Samuel Johnson because his BOLEO conviction continued to qualify as a
“violent felony” within the ACCA’s elements clause, under the modified categorical
approach. (DE 17:6-9). The Court explained:
Curtis Johnson does not preclude use of a Florida battery conviction to
support an ACCA enhancement if violent force was actually used in
committing the battery. Instead, recognizing the battery statute is
divisible and contains disjunctive elements, the Supreme Court
determined courts should apply the modified categorical approach to
decide “which version of the offense [the] defendant was convicted of.”
Descamps, 133 S.Ct. at 2284 (alteration added); see Curtis Johnson,
559 U.S. at 136.
Under the modified categorical approach, the Court may consider
Shepard documents including charging documents, plea agreements,
and transcripts of plea colloquies to determine which stator phrase
describes Movant’s conviction. Curtis Johnson, 559 U.S. at 144
(citations omitted). Undisputed statements in a presentence
investigation report may also be considered. United States v. McCloud,
818 F.3d 591, 595-96 (11th Cir. 2016) (citations omitted).
(DE 17:8-9). Since Mr. Franklin “did not object to the PSI and its summary of the
battery offense,” the Court found, his BOLEO conviction constitutes “a third prior
5

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 6 of 18

conviction for a violent felony, which, together with the convictions for armed
robbery and attempted armed robbery, sustain his ACCA enhancement.” (DE 17:9).
The Court denied Mr. Franklin a certificate of appealability. (DE 17:9).
10.

On August 10, 2017, Mr. Franklin filed a timely pro se motion for

reconsideration pursuant to Fed. R. Civ. P. 59(e), arguing that the Court’s finding
that his BOLEO conviction qualified as a “violent felony” constituted “manifest
error” after Mathis v. United States, 136 S.Ct. 2243 (2016), since the “touching or
striking” language in Fla. Stat. § 784.03(1)(a) was “one element with two alternative
means.” The next day, August 11, 2017, the Court issued an order denying the
motion. (DE 20).
11.

On September 22, 2017, the Eleventh Circuit issued its opinion in

Beeman v. United States, 871 F.3d 1215 (11th Cir. 2017), clarifying the burden that
a § 2255 movant like Mr. Franklin must make to establish a valid Johnson claim.
Specifically, the Court held, a § 2255 movant must prove that it is “more likely than
not” that the sentencing court relied only on the residual clause. Id. at 1222, 1224.
12. On October 4, 2017, Mr. Franklin filed a timely notice of appeal, and on
October 16, 2017, he sought a certificate of appealability on whether this Court
erred by concluding that his BOLEO conviction was a “violent felony” within the
elements clause under the modified categorical approach.

On January 2, 2018,

Judge Tjoflat denied Mr. Franklin a certificate of appealability. Franklin v. United
States, Order (11th Cir. May 30, 2019) (No. 17-14495).

6

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 7 of 18

13. On April 6, 2018, Mr. Franklin sought certiorari on whether the “touch
or strike” language in the Florida battery offense was indivisible under Descamps
and Mathis, and if so, whether it was error to hold that a Florida conviction for
battery on a law enforcement officer categorically requires the use of “violent force”
as defined in Curtis Johnson.
14.

On July 6, 2018, the Solicitor General filed a memorandum

acknowledging that the Florida battery statute is divisible into only “two parts:” one
that covers “actually and intentionally touch[ing] or strik[ing] another person
against the will of the other,” and the other that covers “intentionally caus[ing]
bodily harm to another person.” Memorandum of the United States, Franklin v.
United States, No. 17-8401, at 4 (Jul. 6, 2018) (citation omitted; emphasis added).
Thus, a “touching or striking” battery was not itself further divisible, as this Court
had held. “Since it was clear from Curtis Johnson that a conviction for a ‘touching or
striking’ battery requires only the “most ‘nominal contact,’ such as a ‘tap on the
shoulder without consent,” the government agreed that “a conviction for that type of
simple battery does not categorically qualify as a ‘violent felony’ under the ACCA.”
Memorandum at 5.
Here, the government acknowledged, there was “[n]othing in the record” to
indicate

that

Mr.

Franklin’s

conviction

was

for

“bodily

harm”

battery.

Memorandum at 5. “And because ‘touching or striking’ battery does not
categorically require the use of violent force,” the government also acknowledged
that Mr. Franklin’s BOLEO conviction “does not qualify as a violent felony under

7

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 8 of 18

the ACCA’s elements clause.” Memorandum at 5. Accordingly, the government
asked the Supreme Court to grant certiorari, vacate this Court’s judgment, and
remand (GVR) for further consideration of Mr. Franklin’s challenge to his ACCA
sentence in light of its position. Memorandum at 5-6.
15. On February 25, 2019, the Supreme Court GVR’d the case, remanding to
the Eleventh Circuit “in light of the position asserted by the Solicitor General in his
brief for the United States filed on July 5, 2018.” Franklin v. United States, 139
S.Ct. 1254 (Feb. 25, 2019).
16. On April 12, 2019, Judge Tjoflat granted Mr. Franklin a certificate of
appealability “[i]n light of the Supreme Court’s decision granting certiorari.”
Franklin v. United States, Order, (11th Cir. Apr. 12, 2019) (No. 17-14495).

The

Court then set a briefing schedule, with Mr. Franklin’s initial brief to be filed on or
before May 22, 2019.
17. On April 23, 2019, the parties filed a joint motion for summary reversal
and remand under United States v. Pickett, 916 F.3d 960 (11th Cir. 2019) to allow
consideration of Beeman.

The Eleventh Circuit explained in Pickett that because

Beeman requires a showing that a defendant was “more likely than not” sentenced
under the residual clause, that in turn required a determination of “what the
district court actually had in mind when it sentenced Pickett under ACCA.” Id. at
961, 964. However, the Eleventh Circuit clarified, a defendant did not have to show
“that the convictions only qualified under the residual clause—that would be an
escalation of the burden of proof above what Beeman requires.” Id. at 964.

8

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 9 of 18

One (but not the only) way of showing what the district court had in mind at
the time of sentencing, the Court noted in Pickett, was to consider the “legal
landscape” at the time of sentencing. In that regard, the Eleventh Circuit
recognized that when Mr. Pickett was sentenced in February of 2007, a Florida
battery conviction “almost certainly qualified under the residual clause, though no
binding precedent said as much at the time.” Id. at 964–65 (noting that while an
unpublished decision of that Court had so held, it was “nonbinding and difficult to
locate;” however, the district court “would not have needed to dig so deep in order to
find that the convictions easily qualified under the residual clause.”) Indeed, the
Court found, the residual clause “was the most obvious clause under which the
convictions qualified,” id. at 965, and the “district court likely would have quickly
determined that Pickett’s battery convictions qualified under the residual clause.”
Id. at 966.. By contrast, the Court found, it was “uncertain at best” whether BOLEO
also qualified under the elements clause at that time. Id. at 964-66. But even so, the
Court held, Mr. Pickett still needed to show that it was at least “unlikely that the
trial court thought the convictions also qualified under the elements clause.” Id.
“With

the

residual

clause

plainly

available,”

the

Eleventh

Circuit

acknowledged, “the district court would not have needed to consider the elements
clause at all.” Id. However, since the Eleventh Circuit simply did “not know what
else [the district court] might have thought,” the Court remanded the case. Id. at
966. And indeed, it encouraged the district court on remand in Pickett to make a
factual finding about “what actually happened” – “which clause(s) it had actually

9

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 10 of 18

considered at the original sentencing,” and then, in light of that, “whether Pickett
can show, as a historical fact, that he was more likely than not sentenced under
only the residual clause.” Id. at 967.
18.

When the parties in this case filed their joint motion for summary

reversal and remand under Pickett, they first advised the Eleventh Circuit of their
agreement that the “touch or strike” language of the Florida battery statute was not
divisible. In that regard, they noted with significance that the Eleventh Circuit had
itself just so recognized in United States v. Vereen, 920 F.3d 1300, 1314 (11th Cir.
Apr. 5, 2019). And since a “touching or striking” battery was not a qualifying ACCA
predicate, they noted that the only remaining issue to be decided in Mr. Franklin’s
case was whether he could meet his burden under Beeman of showing that it was
“more likely than not” that the district court imposed the ACCA enhancement
under the residual clause, and “only the residual clause.” Id. at 1221-22, 1224.
On that issue, the parties noted that Pickett was on point and indicated a
remand was in order. In neither Pickett nor this case, they explained, did the
parties have an “opportunity to address” – nor did the district court have an
opportunity to determine – whether it was “more likely than not” that in finding
that Florida BOLEO was an ACCA “violent felony,” it “only relied” on the residual
clause. Pickett, 916 F.3d at 964, 966-67. Because (1) Beeman was rendered after
this Court denied Mr. Franklin’s § 2255 motion; (2) there could be no substantial
question that his case should be remanded under Pickett; and (3) time was of the
essence since Mr. Franklin had almost completely served his entire 15 year ACCA

10

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 11 of 18

term by that juncture,2 the parties urged the Eleventh Circuit to summarily reverse
and remand his case to allow this Court to conduct a Beeman inquiry.
19. On May 30, the Eleventh Circuit granted the parties’ joint motion, and
reversed this Court’s judgment denying Mr. Franklin’s § 2255 relief. Franklin v.
United States, Order (11th Cir. May 30, 2019) (No. 17-14495). In remanding to this
Court for reconsideration in light of Beeman, the Eleventh Circuit agreed that both
a summary disposition and remand were appropriate under Pickett, as “this case’s
circumstances align almost identically to those in Pickett,” and “[b]oth parties
indicate that they do not wish to rest on the record as it exists.” Id. at 3 (citing
Beeman, 871 F.3d at 1221). As such, the Court “follow[ed] Pickett’s remedy to allow
the parties to present their arguments about Beeman and to allow the district court
to decide the issue in the first instance.” Id. at 3-4 (citing Pickett, 916 F.3d at 967).
LEGAL ARGUMENT
Given the Eleventh Circuit’s decision in Pickett and its reversal and remand
based upon Pickett in this case, Mr. Franklin respectfully requests that this Court
make explicit what was “more likely than not” the case at his 2007 sentencing: that
this Court relied solely on the residual clause to impose the ACCA enhancement.
The Eleventh Circuit’s opinion in Pickett acknowledges that in 2007, Florida battery

In that regard, the parties advised that Mr. Franklin’s BOP release date on his 15year ACCA sentence was (then) December 26, 2019, with an expected June 27, 2019
release to a halfway house. However, Mr. Franklin’s release date has just been recalculated to take into account the new gain time provisions of the First Step Act.
As such, his newly-calculated release date is even sooner – September 13, 2019 –
and he is now at a halfway house awaiting the termination of his ACCA sentence on
that date.
2

11

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 12 of 18

convictions had “easily qualified” under the residual clause, which was “plainly
available.”

916 F.3d at 965–66.

Indeed, it was for that very reason that Mr.

Franklin did not object to the ACCA enhancement. And given that there was no
objection at the 2007 sentencing, it would have been entirely unnecessary for this
Court to even consider the elements clause at the sentencing – let alone use the
elements clause as an alternative basis for imposing the ACCA enhancement.
Three additional facts about the “legal landscape” at the time make it
exceedingly unlikely that the Court would have “also” imposed the enhancement
under the elements clause. First, as the Eleventh Circuit recognized in Pickett,
whether a BOLEO offense qualified under the elements clause was still “uncertain”
as a matter of law in 2007. Id. at 966. Second, what was certain – and had been
certain since the Supreme Court’s 1990 decision in Taylor v. United States, 495
U.S. 575 (1990) – was that sentencing courts were permitted to impose all ACCA
enhancements under the residual clause, even if a predicate potentially qualified
under another clause. Indeed, the Supreme Court had explicitly encouraged courts
to do so in Taylor. See id. at 598, 609 n. 9 (confirming that “[t]he Government
remains free to argue that any offense – including offenses similar to [the
enumerated crime of] generic burglary – should count towards enhancement as one
that “otherwise involves conduct that presents a serious potential risk of physical
injury to another” under the residual clause) (emphasis added). Third, it was not
until April of 2008 (after Mr. Franklin’s sentencing) in Begay v. United States, 553

12

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 13 of 18

U.S. 137 (2008), that the Supreme Court put any constraint on using the residual
clause as the go-to path for the enhancement.
Since Mr. Franklin was sentenced during the 18-year residual clause “freefor-all” that existed between Taylor and Begay, common sense compels the
conclusion that it is “more likely than not” that this Court counted his BOLEO
offense as an ACCA “violent felony” solely under the residual clause. Indeed, that
common sense conclusion is bolstered by the fact that other judges on this very
Court have now explicitly confirmed that in imposing ACCA sentences at
uncontested sentencings during this very same time period, they focused only on the
residual clause.
Judge

Middlebrooks.

Notably,

upon

remand

in

Pickett,

Judge

Middlebrooks stated that even though he had no specific recollection of that
particular sentencing, it was indeed “more likely than not” that he relied solely
upon the residual clause in counting Mr. Pickett’s Florida BOLEO conviction as an
ACCA “violent felony” in 2007. In so finding, Judge Middlebrooks referenced his
prior statement in footnote 11 of his order granting Mr. Pickett’s § 2255 motion,
rightly recognizing that “Mr. Pickett had little reason to object to the PSI given the
residual clause.” Pickett v. United States, Case No. 16-cv-61298-DMM, DE 28 (June
7, 2019) (citing DE 11; finding that Mr. Pickett has thus satisfied his burden of
proof under Beeman).3 Moreover, Judge Middlebrooks has acknowledged that he
even relied solely on the residual clause a year later – in October 2008 – in imposing
Upon remand in Pickett, the government notably did not oppose reinstating the
original order granting § 2255 relief.
3

13

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 14 of 18

an ACCA sentence upon another similarly-situated defendant, Roderick Vann,
based upon a BOLEO conviction. See Vann v. United States, Case No. 16-cv-80853,
DE 28:5–7 (Oct. 26, 2017) (denying government’s motion for reconsideration under
Beeman of court’s grant of § 2255 motion; expressly finding that Mr. Vann had met
his burden of proof based on the legal landscape at the time of sentencing). See also
Railey v. United States, Case No. 11-cr-80048-DMM, DE 85:12 (Nov. 9, 2017)
(finding that it was also “more likely than not” that the court relied on the residual
clause in counting other Florida battery convictions – for felony battery and
aggravated battery on a pregnant woman – as ACCA violent felonies at a 2011
sentencing, given the Curtis Johnson decision in 2010; having thus met Beeman,
the movant had met his burden of proving a Johnson claim).
Judge Seitz. Notably, in the wake of Beeman, Judge Seitz acknowledged
that her “default practice” was to rely only on the residual clause in uncontested
ACCA sentencings where the predicate was not enumerated. In explaining why that
was, Judge Seitz first underscored that “there was no legal requirement that a
sentencing court state on the record its finding as to which of the three ACCA
clauses . . . the qualifying state conviction fell under.” Curry v. United States, Case
No. 16-cv-22898, DE 25:2 (Mar. 7, 2018). However, she explained, in determining
whether the ACCA applied, she applied the following approach: “If the state
conviction fell within the enumerated clause, it was readily determined. If it did
not fall within the enumerated clause, then the residual clause was considered.
Because its language was broad enough to include a host of offenses the ACCA was

14

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 15 of 18

attempting to address, the undersigned defaulted to the residual clause when
applying the ACCA enhancement in this and all other similar cases. This spared
the court the time consuming and mechanistic approach of comparing the often
disparate elements of the state conviction with the requirements under the
elements clause of the ACCA.” Id.
Judge Seitz has acknowledged that she employed that same default practice
in 2006, when she sentenced Shannon Dawson, whose ACCA enhancement (like Mr.
Franklin’s) was based on a Florida BOLEO conviction. Dawson v. United States,
Case No. 16-cv-22399, DE 29:16 n.12 (Feb. 28, 2018) (“It is noteworthy, as a matter
of fact, that the undersigned was the sentencing judge in this case. The Court
affirmed the Magistrate Judge’s finding in the prior habeas that Movant had been
sentenced under the residual clause as that was the Court’s default practice at the
time of sentencing.”). And in fact, in recently applying the Eleventh Circuit’s Pickett
decision in Curry (which involved a 2005 sentencing), Judge Seitz commented that
Mr. Pickett himself would satisfy Beeman under her default practice. See Curry,
Case No. 16-cv-22898, DE 44:16 (May 10, 2019) (granting relief post-Pickett after
finding that Mr. Curry and Mr. Pickett were similarly situated).
* * *
For all of the above reasons, the Court should make a factual finding that,
more likely than not, it relied solely on the residual clause in sentencing Mr.
Franklin as an Armed Career Criminal. That finding would be consistent with: the
Eleventh Circuit’s discussion of the legal landscape on BOLEO and the elements

15

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 16 of 18

and residual clauses in 2007; the Supreme Court’s confirmation in footnote 9 of
Taylor that all predicates could be considered under the residual clause; Judge
Middlebrooks’ statements in Pickett, Vann, and Railey; and the default practice of
Judge Seitz which – presumably—was the safe, default practice of many Judges in
this District, when considering a BOLEO conviction as an ACCA predicate where
no objection was raised. In such cases, there was no logical reason for a judge to
broach the more difficult topic of whether there was an exact match in elements
between the Florida BOLEO statute and the ACCA’s elements clause.
As Judges Middlebrooks and Seitz have done, the Court here as well should
find that since Beeman has been met, Mr. Franklin’s motion to vacate his illegal
ACCA sentence under § 2255 should be granted. That result is warranted because
there is no dispute at this time that as a matter of law, Mr. Franklin is not an
Armed Career Criminal today, and he has greatly overserved his lawful maximum
sentence under 18 U.S.C. § 924(a)(2). Denying him relief from his enhanced ACCA
sentence would create unwarranted sentencing disparities in this District with the
defendants in Pickett, Vann, Railey, Dawson,4 and Curry.
CONCLUSION
For the foregoing reasons, Mr. Franklin respectfully requests that this Court
expressly find that it relied solely on the residual clause to impose his ACCA
enhancement. With that finding, he asks that the Court grant his § 2255 motion,

The government elected to dismiss (rather than pursue) its appeal from the order
granting Mr. Dawson § 2255 relief. See 11th Cir. Case No. 18-12133 (government
appeal dismissed July 2, 2018).
4

16

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 17 of 18

and re-sentence him to the 120 month statutory maximum under § 924(a)(2) so that
he may be immediately released from the custodial portion of his sentence and
begin serving a reduced term of supervised release. Notably, at a total offense level
of 22 and criminal history category IV, Mr. Franklin’s guideline range without the
ACCA enhancement would be 63-78 months imprisonment. Since he has already
served double the top of that range at this time, he asks that the Court to take that
into account by imposing a reduced term of 1 year supervised release.
Respectfully Submitted,
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
By:

/s/Brenda G. Bryn
Brenda G. Bryn
Assistant Federal Public Defender

17

Case 1:16-cv-22192-CMA Document 27 Entered on FLSD Docket 06/24/2019 Page 18 of 18

CERTIFICATE OF SERVICE
I HEREBY certify that on June 24, 2019 I electronically filed the foregoing
document with the Clerk of the Court using CM/ECF. I also certify that the
foregoing document is being served this day on all counsel of record via
transmission of Notices of Electronic Filing generated by CM/ECF or in some other
authorized manner for those counsel or parties who are not authorized to receive
electronically Notices of Electronic Filing.
/s/Brenda G. Bryn

18

Case 1:16-cv-22192-CMA Document 27-1 Entered on FLSD Docket 06/24/2019 Page 1 of 5
Case: 17-14495 Date Filed: 05/30/2019 Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

May 30, 2019
Brenda Greenberg Bryn
Federal Public Defender's Office
1 E BROWARD BLVD STE 1100
FORT LAUDERDALE, FL 33301
Appeal Number: 17-14495-HH
Case Style: Jimmy Franklin v. USA
District Court Docket No: 1:16-cv-22192-CMA
Secondary Case Number: 1:06-cr-20709-CMA-1
The enclosed copy of this Court's Order of Dismissal is issued as the mandate of this court. See
11th Cir. R. 41-4. Counsel and pro se parties are advised that pursuant to 11th Cir. R. 27-2, "a
motion to reconsider, vacate, or modify an order must be filed within 21 days of the entry of
such order. No additional time shall be allowed for mailing."
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Christopher Bergquist, HH
Phone #: 404-335-6169
Enclosure(s)
DIS-4 Multi-purpose dismissal letter

Case 1:16-cv-22192-CMA Document 27-1 Entered on FLSD Docket 06/24/2019 Page 2 of 5
Case: 17-14495 Date Filed: 05/30/2019 Page: 1 of 4

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 17-14495-HH
________________________
JIMMY LEE FRANKLIN,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________

Before: TJOFLAT, WILSON and BRANCH, Circuit Judges.
BY THE COURT:
Jimmy Franklin, a federal prisoner proceeding with counsel, appeals the district court’s
denial of his counseled and authorized second 28 U.S.C. § 2255 motion to vacate, raising a
challenge to his sentence under Johnson v. United States, 135 S. Ct. 2551 (2015), and its denial of
his pro se Fed. R. Civ. P. 59(e) motion to alter or amend the judgment. We summarily granted
Franklin a certificate of appealability (“COA”), in light of the Supreme Court’s vacatur of the
previous denial of Franklin’s motion for a COA. Before briefing, the government and Franklin
jointly filed a motion for summary reversal of the district court’s order denying his § 2255 motion.
Summary disposition is appropriate either where time is of the essence, such as “situations
where important public policy issues are involved or those where rights delayed are rights denied,”

Case 1:16-cv-22192-CMA Document 27-1 Entered on FLSD Docket 06/24/2019 Page 3 of 5
Case: 17-14495 Date Filed: 05/30/2019 Page: 2 of 4
or where “the position of one of the parties is clearly right as a matter of law so that there can be
no substantial question as to the outcome of the case, or where, as is more frequently the case, the
appeal is frivolous.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
In a § 2255 proceeding, we review a district court’s legal conclusions de novo and its
factual findings for clear error. Farris v. United States, 333 F.3d 1211, 1216 (11th Cir. 2003).
The Armed Career Criminal Act (“ACCA”) defines the term “violent felony” as any crime
punishable by a term of imprisonment exceeding one year that:
(i)

has as an element the use, attempted use, or threatened use of physical force
against the person of another; or

(ii)

is burglary, arson, or extortion, involves use of explosives, or otherwise
involves conduct that presents a serious potential risk of physical injury to
another.

18 U.S.C. § 924(e)(2)(B). The first prong of this definition is sometimes referred to as the
“elements clause,” while the second prong contains the “enumerated crimes” and, finally, what is
commonly called the “residual clause.” United States v. Owens, 672 F.3d 966, 968 (11th Cir.
2012). On June 26, 2015, the Supreme Court in Johnson held that the residual clause of the ACCA
is unconstitutionally vague because it creates uncertainty about how to evaluate the risks posed by
a crime and how much risk it takes to qualify as a violent felony. Johnson, 135 S. Ct. at 2557-58,
2563. Thereafter, the Supreme Court held that Johnson announced a new substantive rule that
applies retroactively to cases on collateral review. Welch v. United States, 136 S. Ct. 1257, 126465, 1268 (2016).
In Beeman, we held that a § 2255 movant must prove that it was “more likely than not”
that the use of the residual clause led the sentencing court to impose the ACCA enhancement.
Beeman v. United States, 871 F.3d 1215, 1221-22 (11th Cir. 2017), cert. denied, 139 S. Ct. 1168
(2019). In doing so, we rejected the movant’s premise that a Johnson movant had met his burden
2

Case 1:16-cv-22192-CMA Document 27-1 Entered on FLSD Docket 06/24/2019 Page 4 of 5
Case: 17-14495 Date Filed: 05/30/2019 Page: 3 of 4
unless the record affirmatively showed that the district court relied upon the ACCA’s elements
clause. Id. at 1223. We clarified that the relevant issue is one of historical fact—whether at the
time of sentencing the defendant was sentenced solely under the residual clause. Id. at 1224 n.5.
Moreover, we determined that, as the movant had not suggested a remand for an evidentiary
hearing and chose to proceed on the basis of the record as it existed instead, we could address in
the first instance whether he could carry his burden of proving a Johnson claim under the
appropriate standard. Id. at 1221.
In Pickett, we vacated and remanded the district court’s grant of the movant’s second
§ 2255 motion, where the district court granted relief pursuant to Johnson and Welch in part
because it was unclear from the record whether he had been sentenced under the elements or the
residual clause. United States v. Pickett, 916 F.3d 960, 962-63, 967 (11th Cir. 2019). Both parties
acknowledged that the burden announced in Beeman was applicable and agreed that the record
was silent as to which clause was on the district court’s mind when it applied the ACCA
enhancement. Id. at 963-64. We stated that it was unclear whether and under which clause the
movant’s ACCA predicate offenses qualified as violent felonies at the time of his sentencing. Id.
at 964-66. Nevertheless, we held that remand was appropriate because the parties had no occasion
to address the requirements established in Beeman in the district court, and the district court was
in a better position to review in the first instance what likely happened, especially because we were
remanding the case to the same judge who initially sentenced the movant. Id. at 967.
Here, remand is appropriate. Both parties indicate that they do not wish to rest on the
record as it exists. See Beeman, 871 F.3d at 1221. As this case’s circumstances align almost
identically to those in Pickett, we will follow Pickett’s remedy to allow the parties to present their

3

Case 1:16-cv-22192-CMA Document 27-1 Entered on FLSD Docket 06/24/2019 Page 5 of 5
Case: 17-14495 Date Filed: 05/30/2019 Page: 4 of 4

arguments about Beeman and to allow the district court to decide the issue in the first instance.
Pickett, 916 F.3d at 967; Davis, 406 F.2d at 1162.
Accordingly, the parties’ joint motion for summary reversal is GRANTED.

4

A-9

Case 1:16-cv-22192-CMA Document 28 Entered on FLSD Docket 07/01/2019 Page 1 of 4

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-22192-CIV-ALTONAGA
(06-20709-CR-ALTONAGA)
JIMMY LEE FRANKLIN,
Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.
______________________________ /
GOVERNMENT=S RESPONSE TO MOVANT’S
SUPPLEMENTAL MEMORANDUM IN SUPPORT OF SECTION 2255 MOTION
The United States of America, by and through the undersigned Assistant United States
Attorney, hereby files this Response to the Movant’s Supplemental Memorandum in Support of
Section 2255 Motion (CVDE 27).1
Pursuant to the order of the Eleventh Circuit Court of Appeals granting the parties’ joint
motion for summary reversal (CVDE 27-1), the issue before this Court is whether or not the
Movant has satisfied his burden under Beeman v. United States, 871 F.3d 1215 (11th Cir. 2017),
of proving that it is more likely than not that the Court relied solely upon the residual clause of the
Armed Career Criminal Act (“ACCA”) in determining that his conviction for battery on a law
enforcement officer (“BOLEO”) was a violent felony. Here, Movant cannot satisfy that burden
in light of the legal landscape at the time of his sentencing.
This Court sentenced Movant on October 16, 2007 (CRDE 54). Five months earlier, the
Eleventh Circuit issued its decision in United States v. Llanos-Agostadero, 486 F.3d 1194, 1197

1

Documents filed in this case will be referred to as CVDE followed by the appropriate docket
entry number. Documents filed in Movant’s underlying criminal case will be referred to as CRDE
followed by the appropriate docket entry number.

Case 1:16-cv-22192-CMA Document 28 Entered on FLSD Docket 07/01/2019 Page 2 of 4

(11th Cir. May 15, 2007). The issue in Llano-Agostadero was whether or not the defendant’s
prior conviction for aggravated battery on a pregnant woman was a crime of violence under
U.S.S.G. § 2L1.2(b)(1)(A)(ii)). “Application Notes for U.S.S.G. § 2L1.2(b)(1) provide that a
‘crime of violence’ means, inter alia, ‘any offense under . . . state . . . law that has as an element
the use, attempted use, or threatened use of physical force against the person of another.’ U.S.S.G.
§ 2L1.2(b)(1), comment. (n.1(B)(iii)).” Id. at 1196. The Eleventh Circuit noted that this is
identical to the definition of a “crime of violence” in U.S.S.G.§ 4B1.2(a)(1). Id., at 1197. “[T]he
offense of aggravated battery on a pregnant woman under Florida law has as an element that the
defendant commit simple battery.” Id. (citing Small v. State, 889 So.2d 862, 863
(Fla.Dist.Ct.App.2004)). The Eleventh Circuit went on to note that in United States v. Glover,
431 F.3d 744 (11th Cir. 2005), it “set forth the elements of simple battery under Florida law and
held that simple battery on a law enforcement officer, in violation of Fla. Stat. §§ 784.03 and
784.07, is a crime of violence under U.S.S.G. § 4B1.2(a).” Id. Because “there is no persuasive
reason why simple battery on a law enforcement officer is a ‘crime of violence,’ . . . while simple
battery on a pregnant woman (which constitutes aggravated battery) is not” the Eleventh Circuit
concluded “that aggravated battery on a pregnant woman, in violation of Fla. Stat. § 784.045(1)(b),
is a crime of violence under U.S.S.G. § 2L1.2(b)(1).”
“The definition of ‘violent felony’ under ACCA is nearly identical to the definition of
‘crime of violence’ under the Sentencing Guidelines, and both definitions have included an
identical residual clause. 18 U.S.C. § 924(e)(2)(B); U.S.S.G. § 4B1.2(a)(2)(2006). As a result,
decisions about one have been applied to the other.” United States v. Pickett, 916 F.3d 960, 965
n.2 (11th Cir. 2019) (citing United States v. Matchett, 802 F.3d 1185, 1193–94 (11th Cir. 2015)).
Accordingly, the law in this Circuit in place at the time of Movant’s sentencing was clear that

2

Case 1:16-cv-22192-CMA Document 28 Entered on FLSD Docket 07/01/2019 Page 3 of 4

BOLEO was a crime of violence under the elements clauses of U.S.S.G. §§ 2L1.2(b)(1) and
4B1.2(a)(1) and, in turn, a violent felony under the elements clause of the ACCA. Movant cannot
establish that it was more likely than not that this Court ignored the binding precedent of LlanosAgostadero and determined his ACCA eligibility based solely on the residual clause.2
Llanos-Agostadero makes this case distinguishable from United States v. Pickett, 916 F.3d
960 (11th Cir. 2019). The defendant in that case was sentenced on February 2, 2007, id., at 962,
approximately a month and a half prior to the issuance of the decision in Llanos-Agostadero. The
Eleventh Circuit found that the “precedential landscape” at the time of Pickett’s sentencing was
“uncertain,” in part, because of its conclusion that “[i]n context” the statement in Glover that
BOLEO is a crime of violence “seems” to be “dicta.” Id. at 966. Whatever uncertainty there
was in the legal landscape at the time of Pickett’s sentencing was resolved by the time of Movant’s
sentencing in light of the Eleventh Circuit’s statements in Llanos-Agostadero that “Glover . . . held
that simple battery on a law enforcement officer, in violation of Fla. Stat. §§ 784.03 and 784.07,
is a crime of violence” and “that aggravated battery on a pregnant woman, in violation of Fla. Stat.
§ 784.045(1)(b), is a crime of violence.” Llanos-Agostadero, 486 F.3d at 1197-98 (emphasis
added).

2

Nowhere in his supplemental memorandum does Movant address the impact of LlanosAgostadero on the precedential landscape at the time of his sentencing.

3

Case 1:16-cv-22192-CMA Document 28 Entered on FLSD Docket 07/01/2019 Page 4 of 4

WHEREFORE, the Court should enter an order finding that Movant has failed to satisfy
his burden of proving that it is more likely than not that this Court relied exclusively on the residual
clause when it classified his BOLEO conviction as a crime of violence and DENYING the motion
to vacate, accordingly.3

Respectfully submitted,
ARIANA FAJARDO ORSHAN
UNITED STATES ATTORNEY
By:

/s/ Sean Paul Cronin
Sean Paul Cronin
Assistant United States Attorney
Court No.A5500940
99 N.E. 4th Street, Suite 400
Miami, FL 33132
Tel# (305) 961-9194
Fax: (305) 530-6168
Sean.P.Cronin@usdoj.gov

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on July 1, 2019, I electronically filed the foregoing document
with the Clerk of the Court using CM/ECF.
/s/ Sean Paul Cronin
Sean Paul Cronin
Assistant United States Attorney

3

If, despite the then-binding precedent of Llanos-Agostadero, the Court expressly finds that it
relied solely on the residual clause to impose the ACCA enhancement, the United States would
not oppose, under the particular circumstances of this case, the granting of the Section 2255
motion.

4

A-10

Case 1:16-cv-22192-CMA Document 29 Entered on FLSD Docket 07/08/2019 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-22192-CIV-ALTONAGA
JIMMY LEE FRANKLIN,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.
______________________________/
ORDER
THIS CAUSE is before the Court following the Order [ECF No. 27-1] of the Eleventh
Circuit Court of Appeals granting the parties’ joint motion for a summary reversal to allow the
undersigned to determine whether it is more likely than not that the Court relied exclusively on the
residual clause when it classified Movant’s conviction for battery on a law enforcement officer
(“BOLEO”) as a crime of violence at his sentencing hearing. Movant, Jimmy Lee Franklin, filed
a Supplemental Memorandum in Support of § 2255 Motion [ECF No. 27], to which the
Government filed a Response [ECF No. 28]. The Court has carefully reviewed the parties’
memoranda, the record, and applicable law.
On October 16, 2007, the undersigned sentenced Mr. Franklin in case number 06-20709Cr, as an Armed Career Criminal after he pled guilty to being a felon in possession of a firearm
and ammunition in violation of 18 U.S.C. sections 922(g)(1) and 924(e), because he had three
qualifying “violent felonies.” (See Supp. Mem. ¶¶ 1–4). Among those offenses was the BOLEO.
(See id.). Given Beeman v. United States, 871 F.3d 1215 (11th Cir. 2017), the Court is now asked
to determine whether it is more likely than not that she relied solely on the residual clause of the
Armed Career Criminal Act (“ACCA”) in determining Mr. Franklin’s BOLEO conviction was a

Case 1:16-cv-22192-CMA Document 29 Entered on FLSD Docket 07/08/2019 Page 2 of 2
CASE NO. 16-22192-CIV-ALTONAGA
violent felony. It is unremarkable that the Court has no specific recollection of Mr. Franklin’s
sentencing hearing, some 12 years later.
Yet, the Court must agree with the Government it is more likely than not that she did not
rely on the ACCA’s residual clause in counting the BOLEO conviction as an ACCA violent felony.
In United States v. Llanos-Agostadero, 486 F.3d 1194, 1197–98 (11th Cir. 2007), the Eleventh
Circuit stated “Glover . . . held that simple battery on a law enforcement officer, in violation of
Fla. Stat. §§ 784.03 and 784.07, is a crime of violence,” and “aggravated battery on a pregnant
woman, in violation of Fla. Stat. § 784.045(1)(b), constitutes a crime of violence.” (alteration
added). As noted by the Government, “the law in this Circuit . . . at the time of Movant’s
sentencing was clear that BOLEO was a crime of violence under the elements clauses of U.S.S.G.
§§ 2L1.2(b)(1) and 4B1.2(a)(1) and, in turn, a violent felony under the elements clause of the
ACCA.” (Resp. 2–3 (alteration added)). The Court would not have ignored the binding precedent
of Llanos-Agostadero, decided on May 15, 2007, to determine Mr. Franklin’s ACCA eligibility
based solely on the residual clause, but instead would have decided BOLEO was a crime of
violence under the ACCA’s elements clause.
DONE AND ORDERED in Miami, Florida, this 8th day of July, 2019.

_________________________________
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE
cc:

counsel of record

A-11

Case 1:16-cv-22192-CMA Document 31 Entered on FLSD Docket 07/23/2019 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-22192-CIV-ALTONAGA/Goodman
JIMMY LEE FRANKLIN,
Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.
______________________________/
ORDER
THIS CAUSE came before the Court on Movant’s Motion for a Certificate of
Appealability [ECF No. 30], filed under 28 U.S.C. section 2253(c)(2). The Court agrees with
Movant’s analysis that reasonable jurists could debate whether Movant’s Motion to Correct
Sentence [ECF No. 9] should have been resolved in a different manner or the issues he raised were
adequate to deserve encouragement to proceed further. (See Motion for a Certificate 2 (quoting
Slack v. McDaniel, 529 U.S. 473, 484 (2000))). Accordingly, it is
ORDERED AND ADJUDGED that Movant’s Motion for a Certificate of Appealability
[ECF No. 30] is GRANTED. A certificate of appealability is entered on the following issue:
In a case where the sentencing record does not reveal which clause of the ACCA
was the basis for the enhancement, whether a section 2255 movant must prove it is
“more likely than not” the court relied only on the residual clause, as the First, Fifth,
Sixth, Eighth, Tenth, and Eleventh Circuits have held; or rather, the movant need
only show the ACCA enhancement “may have” rested on the residual clause, as the
Second, Third, Fourth, and Ninth Circuits have held.
DONE AND ORDERED in Miami, Florida, this 23rd day of July, 2019.

_________________________________
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE

